<html>
<title> - BENGHAZI: THE ATTACKS AND THE LESSONS LEARNED</title>
<body><pre>[Senate Hearing 113-184]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-184
 
                       BENGHAZI: THE ATTACKS AND 
                          THE LESSONS LEARNED 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 23, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-780 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
ROBERT P. CASEY, Jr., Pennsylvania   RON JOHNSON, Wisconsin
JEANNE SHAHEEN, New Hampshire        JEFF FLAKE, Arizona
CHRISTOPHER A. COONS, Delaware       JOHN McCAIN, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky
CHRISTOPHER MURPHY, Connecticut
TIM KAINE, Virginia
              William C. Danvers,  Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State, U.S. Department 
  of State, Washington, DC.......................................     6
    Prepared statement...........................................    10
    Responses to questions submitted for the record by the 
      following Senators:
        Robert Menendez..........................................    48
        Tom Udall................................................    52
        James E. Risch...........................................    53
        Marco Rubio..............................................    56
        Jeff Flake...............................................    61
        John Barrasso............................................    63
Corker, Bob, U.S. Senator from Tennessee, opening statement......     4
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1

                                 (iii)

  


                       BENGHAZI: THE ATTACKS AND 
                          THE LESSONS LEARNED

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:03 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Robert Menendez 
presiding.
    Present: Senators Menendez, Boxer, Cardin, Casey, Shaheen, 
Coons, Durbin, Udall, Murphy, Kaine, Corker, Risch, Rubio, 
Johnson, Flake, McCain, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. The committee will come to 
order.
    Let me begin by welcoming the new members to the 
committee--Senators Kaine and Murphy, Senators Johnson, McCain, 
Flake, and Paul. Since the full Senate has not yet passed the 
committee resolution officially seating members, I want to ask 
unanimous consent of returning members to allow our prospective 
members to participate in today's hearing; and if there is no 
objection, so ordered.
    Madam Secretary, let me welcome you and thank you for 
honoring your commitment to come before the committee after the 
Administrative Review Board's findings. You said you would 
after the findings were completed, and you had a bit of an 
intervening challenge, but we are thrilled to see you here 
today doing well and taking time out of your schedule in these 
final days to discuss the tragic events that occurred in 
Benghazi on September the 11th and the lessons we need to learn 
from that event to ensure that all American personnel are fully 
protected and our embassies are fully secure wherever they are.
    In your tenure as Secretary of State and your appearances 
before this committee, you have always been upfront, 
forthright, and energetic in defending our Foreign Service 
officers and their needs, and I, for one, commend you for it. 
Unfortunately, the tragic events in Benghazi are a sad reminder 
of the inherent risks that come with diplomatic engagement in 
parts of the world that are struggling to build new governments 
from what has often been chaotic situations and underscore the 
very real courage of the unsung men and women who put their 
lives at risk to serve this Nation's interests abroad.
    Let me say that I respect what you have done during your 
tenure as Secretary of State in representing not only this 
Nation, but those in our Foreign Service who are on the 
diplomatic front lines in turbulent and dangerous parts of the 
globe. It is a reflection of your leadership as well as your 
patriotism and your abiding belief in the power of our policies 
to move the world toward democracy, peace, and the preservation 
of human rights.
    Your candor before this committee has been a trademark of 
your service as Secretary of State, and I believe that every 
member has always welcomed your openness and your cooperation. 
Your letter of December 18 to Chairman Kerry was appreciated by 
members of both sides as another example of that openness and 
cooperation.
    Let me say that we share your mission and that we look 
forward to a constructive dialogue today to learn from the 
events that occurred in Benghazi and to devise better policies 
to protect the nearly 70,000 men and women serving in 
Washington, DC, and at more than 275 posts around the world.
    Ambassador Chris Stevens, Sean Smith, Tyrone Woods, and 
Glen Doherty lost their lives on September 11, 2012, during 
terrorist attacks on the special mission in Benghazi. As a 
committee, we honor their service to our Nation and we grieve 
with their families, but we also resolve to take specific 
actions to prevent future incidents.
    We may not be able to prevent every single terrorist attack 
in the future, but we can--and we must--make sure that our 
embassies and employees, starting with those in high-risk, 
high-threat posts, are capable of withstanding such an attack. 
To that end, Secretary Clinton and the Department of State have 
embraced and agreed to implement all 29 of the Administrative 
Review Board's recommendations. Today we will hear more about 
the progress that the State Department has already made toward 
implementing many of these recommendations.
    But I would add that Congress is not without responsibility 
here. We also have an obligation to do our part to comply with 
the Administrative Review Board's recommendations. It is my 
intention to work with the members of the committee and the 
State Department in the coming months on legislation that will 
improve security and better protect our employees.
    One of the first and easiest things we can do is ensure 
that the State Department's contracting rules allow for 
sufficient flexibility to allow them to quickly make decisions 
where security is at risk and to hire local guards, not only on 
the basis of the lowest price technically acceptable, but also 
on a best-value basis, to ensure that we are not just checking 
the box when it comes to securing our buildings and protecting 
our people.
    State has this authority through March in Afghanistan, 
Pakistan, and Iraq, but value should be a priority in all 
locations and particularly in high-risk environments. We are 
also looking at situations where sole-source contracting may be 
appropriate for certain security-related contacts.
    The Administrative Review Board also supports expanding the 
Marine Security Guard Program, hiring and equipping more 
Diplomatic Security personnel and authorizing full funding for 
the embassy construction Capital Cost-Sharing Program. The 
Capital Cost-Sharing Program for embassy construction was 
created in the aftermath of the 1998 bombings of the U.S. 
Embassies in Nairobi and Dar es Salaam that resulted in 224 
deaths, including 11 American citizens.
    In its first year, it funded the construction of 13 new 
facilities, followed by 11 in 2006 and 9 in 2005. Nearly every 
year since, fewer facilities have been built than in the 
previous year due to both decreases in funding and the fact 
that the allocations to the account have never been indexed to 
inflation. Costs in the construction industry worldwide have 
risen tremendously.
    At the current anticipated funding rate for fiscal year 
2013, the Department of State estimates it will be able to 
construct just three new facilities, though there are several 
dozen posts that have now been designated as High Risk, High 
Threat Posts that need to be replaced immediately.
    But the lessons of Benghazi aren't only about adequately 
resourcing our security operations. They are also about the 
flow of information between the State Department and our 
foreign facilities, within the Department itself, among all the 
agencies engaged in international work, and between the 
Department and Congress. The Department should be assessing and 
regularly designating which posts it considers to be high 
threat and high risk, using that information to drive decisions 
about security, and reporting to Congress on the security 
conditions at these posts.
    The Administrative Review Board also makes it clear that 
there were failures in Benghazi that resulted in an inadequate 
security posture and that responsibility for these failures was 
shared by Washington, by the U.S. Embassy in Tripoli, and by 
the inexact and nonstatus designation of the special mission. 
This left unclear what the security requirements of the mission 
were, or should be, and left staff in the field with limited 
ability and resources to fix the situation. Clearly, that needs 
to change.
    There are two other crucial points made by the 
Administrative Review Board that I think deserve broader 
attention by members of this committee. First, the ARB 
emphasized the growing challenge faced by all American 
officials operating overseas of how to remain active in high-
threat environments, and how to get out beyond the fortified 
walls of our facilities to conduct the direct local interaction 
required for effective diplomacy. How do we remain accessible 
to foreign governments, civil society, and the private sector 
while still securing our embassies and protecting our people in 
these environments?
    Second, the Administrative Review Board correctly points 
out that the Department of State has been resource-challenged 
for many years, and this has constrained our missions and led 
to the husbanding of resources to such a degree that 
restricting the use of resources, even for security, has become 
a conditioned response.
    Decisions about security resources are being made more on 
costs than on need and value. The answer cannot be to cut more 
from other foreign affairs accounts to fund security. That 
approach fails to recognize that diplomacy and foreign aid are 
but downpayments that yield dividends to us in terms of good 
will, open borders 
for the export of American products, protection of our 
intellectual property, and, most importantly, cooperation on 
security and counterterrorism.
    So there is a lot to discuss. Madam Secretary, welcome 
again. We very much appreciate your time.
    On a personal note, since this is likely to be your last 
hearing before this committee--and your leadership will be 
missed--I know I speak for many when I say that you have been 
an outstanding Secretary of State, an exemplary representative 
of American foreign policy and American values and interests to 
every leader around the world. You have changed the face of 
America abroad and extended the hospitable reach of our Nation 
to ordinary citizens, as well as to world leaders.
    During your tenure, you have steered us through economic 
crises in Europe, dealt with changing relations with Asia, 
regime changes in the Arab world, a momentous transition in 
Libya, and a trend toward global strength based on economics 
rather than arms. I personally appreciate that you have used 
your office to aggressively implement sanctions against Iran.
    In addition to these priorities, on nearly every trip you 
have taken--I think, the most traveled Secretary in history--
you also supported, met with, and provided a voice to those 
individuals that do not live in the limelight--women, children, 
the LGBT community, and religious minorities. You have made a 
real difference in the lives of so many people, and for that, 
you have the thanks of a grateful nation.
    I know you will not go gently from the world stage, and I 
look forward to working closely with you in the future.
    We thank you for your service here in the Senate and as 
Secretary of State. We welcome you back any time to talk about 
the issues of the day, recognizing that you may not care to 
spend any more time in that chair than you already have, but we 
certainly appreciate your incredible service.
    With that, let me turn to my friend and colleague, the new 
ranking member of the committee, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. And thank you for 
your comments and also for following through, as we have all 
discussed, to have this hearing today.
    I want to welcome the new committee members, and I know 
there will be a time for us to talk a little bit about the 
committee going forward. In many ways, this is closing out 
business from before, but I thank you very much again for 
having this hearing and look forward to working with everybody 
on the committee.
    Madam Secretary, I want to thank you also. I know we have 
had a number of conversations over the last several weeks and 
actually over the last 4 years. And I want to thank you for 
coming in today and honoring the commitment that you made some 
time ago.
    I know you have had some health issues, still ongoing, and 
yet you are here today. And I think we all respect the 
tremendous amount of hard work that you have put forth over the 
last 4 years. You have probably traveled more than any 
Secretary of State in history and came at your job in the way 
we all thought you would, with hard work and diligence, and I 
know all of us appreciate the transparency with which you talk 
to all of us and, candidly, with irreverence from time to time, 
which is much appreciated.
    I do want to say that Benghazi, I think, to all of us 
represents a lot of different things. In some ways, the 
aftermath in particular that we saw, it represents the very 
worst of Washington. The most bizarre briefing I think I ever 
attended was the briefing we had on September 20, where the 
intelligence community said more than nothing, and it was a 
bizarre briefing at best.
    It happened in the middle of a political campaign, and 
obviously, there was a lot of spin from the White House and a 
lot of comments made on both sides of the aisle, which 
heightened a lot of the focus on Benghazi. I think it also 
represented a sclerotic Department that in many ways made 
decisions that were not based on what was best for those in the 
field.
    I think it represented in many ways a denial of the world 
as it really is today. And I think, after reading the ARB, it 
also represented to me a committee that has never done its 
work, or at least in the 6 years that I have been here has 
never done the kind of oversight that this committee ought to 
do.
    But I think it also represents an awakening. I know that 
you have known this and I know especially many of the members 
on this committee have known this: the spiking of the ball and 
the thinking that when Osama bin Laden was gone that was the 
end of al-Qaeda; we know nothing could be further from the 
truth.
    And the Arab Spring has actually ushered in a time where 
al-Qaeda is on the rise. The world in many ways is even more 
dangerous, as we lack a central command and instead have these 
nodes that are scattered throughout North Africa and other 
places. And I think this creates an opportunity for us to 
develop a policy that really addresses the world as it really 
is today.
    And then, thirdly, Madam Secretary, I know that it was a 
great personal loss to you that Chris Stevens died in the way 
that he did and his three colleagues died in the way that they 
did. I know that you know I was on the ground in Libya 
immediately after this, and I know you have experienced this 
and some of the other members of the committee have as well. 
But to look at the faces of those on the ground in Libya, they 
were in a state of shock. Those people that we sent there doing 
expeditionary diplomacy, who felt like they were on a tether 
and, candidly, did not have the support from Washington that 
they needed to do the things that they needed to do.
    So I think this is an opportunity for us to examine the 
systemic failures. I know that you are going to be, as per our 
conversation last night, as transparent as you have always 
been. I think this is a great opportunity for the incoming 
Secretary to learn from what has happened.
    And I know that many times political appointees have great 
difficulties with the bureaucracy that exists within a 
department, or sometimes people feel they can wait you out 
until the next person comes along. So I think this is an 
opportunity for us to look at those failures.
    I think it is an opportunity for us also as a committee, 
but also as a country to develop a foreign policy that 
reflects, again, the dynamics of the region as they really are 
today.
    And then, lastly, I think this is an opportunity for this 
committee to finally do the work that it should have been doing 
for years. When you read the ARB report you realize that we 
have never done an authorization of the State Department in the 
6 years that I have been here. We have never looked at how 
foreign aid has been spent. We have never done a top-to-bottom 
review. I know that is something that people like you, who come 
to this position, look at as something that is healthy and can 
be done in partnership.
    I know there was some mention of cost, and I was really 
disappointed with the ARB when the first thing that came out of 

the mouths of two people that I respect was money, money, 
money. The fact is this committee would have no idea whether 
the appropriate amount of money was being spent that could have 
prevented what happened in Benghazi, because we have never done 
an authorization.
    So I look at this as a tremendous opportunity, and I want 
to close again by thanking you for your service, thanking you 
for your friendship, thanking you for your transparency, and I 
certainly look forward to your testimony. I know it will be 
presented in a way that will be constructive and helpful to us 
in the future.
    Thank you.
    Senator Menendez. Thank you, Senator Corker.
    With that, Madam Secretary, we welcome your remarks.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much.
    Mr. Chairman, Ranking Member, members of the committee, 
both older and new, I am very grateful for this opportunity, 
and I thank you very much for your patience to give me the 
chance to come and address these issues with you.
    As both the chairman and the ranking member have said, the 
terrorist attacks in Benghazi on September 11, 2012, that 
claimed the lives of four brave Americans--Chris Stevens, Sean 
Smith, Tyrone Woods, and Glen Doherty--are part of a broader 
strategic challenge to the United States and our partners in 
North Africa. Today, I want briefly to offer some context for 
this challenge, share what we have learned, how we are 
protecting our people, and where we can work together to not 
only honor our fallen colleagues, but continue to champion 
America's interests and values.
    Any clear-eyed examination of this matter must begin with 
this sobering fact. Since 1988, there have been 19 
Accountability Review Boards investigating attacks on American 
diplomats and their facilities. Benghazi joins a long list of 
tragedies for our Department, for other agencies, and for 
America--hostages taken in Tehran in 1979, our Embassy and 
Marine barracks bombed in Beirut in 1983, Khobar Towers in 
Saudi Arabia in 1996, our Embassies in East Africa in 1998, 
consulate staff murdered in Jeddah in 2004, the Khost attack in 
2009, and too many others. Since 1977, 65 American diplomatic 
personnel have been killed by terrorists.
    Now, of course, the list of attacks foiled, crises averted, 
and lives saved is even longer. We should never forget that our 
security professionals get it right more than 99 percent of the 
time against difficult odds all over the world. That is why, 
like my predecessors, I literally trust them with my life.
    Let us also remember that administrations of both parties, 
in partnership with Congress, have made concerted and good 
faith efforts to learn from these attacks and deaths, to 
implement recommendations from the review boards, to seek the 
necessary resources, and to do better in protecting our people 
from what has become constantly evolving threats. That is the 
least that the men and women who serve our country deserve. It 
is what, again, we are doing again now with your help. As 
Secretary, I have no higher priority and no greater 
responsibility.
    As I have said many times, I take responsibility, and 
nobody is more committed to getting this right. I am determined 
to leave the State Department and our country safer, stronger, 
and more secure.
    Now, taking responsibility meant moving quickly in those 
first uncertain hours and days to respond to the immediate 
crisis, but also to further protect our people and posts in 
high-threat areas across the region and the world. It meant 
launching an independent investigation to determine exactly 
what happened in Benghazi and to recommend steps for 
improvement. And it meant intensifying our efforts to combat 
terrorism and figure out effective ways to support the emerging 
democracies in North Africa and beyond.
    Let me share some of the lessons we have learned, the steps 
we have taken, and the work we continue to do. First, let us 
start on the night of September 11 itself and those difficult 
early days.
    I directed our response from the State Department, stayed 
in close contact with officials from across our Government and 
the Libyan Government. So I saw firsthand what Ambassador 
Pickering and former Chairman Mullen called ``timely and 
exceptional coordination.'' No delays in decisionmaking. No 
denials of support from Washington or from our military.
    And I want to echo the review board's praise for the valor 
and courage of our people on the ground, especially the 
security professionals in Benghazi and Tripoli. The board said 
the response saved American lives in real time, and it did.
    The very next morning I told the American people that 
``heavily armed militants assaulted our compound,'' and I vowed 
to bring them to justice. And I stood with President Obama in 
the Rose Garden as he spoke of ``an act of terror.''
    It is also important to recall that in that same period, we 
were seeing violent attacks on our Embassies in Cairo, Sana'a, 
Tunis, and Khartoum, as well as large protests outside many 
other posts where thousands of our diplomats serve. So I 
immediately ordered a review of our security posture around the 
world, with particular scrutiny for high-threat posts.
    I asked the Department of Defense to join Interagency 
Security Assessment Teams and to dispatch hundreds of 
additional Marine security guards. I named the first Deputy 
Assistant Secretary of State for High Threat Posts so missions 
in dangerous places get the attention they need. And we reached 
out to Congress to help address physical vulnerabilities, 
including risks from fire, and to hire additional diplomatic 
security personnel.
    Second, even as we took these steps, I hurried to appoint 
the Accountability Review Board, led by Ambassador Pickering 
and Admiral Mullen, so we could more fully understand from 
objective, independent examination what went wrong and how to 
fix it. I have accepted every one of their recommendations. I 
asked the Deputy Secretary for Management and Resources to lead 
a task force to ensure that all 29 of them are implemented 
quickly and completely, as well as pursuing additional steps 
above and beyond the recommendations.
    I also pledged in my letter to you last month that 
implementation would begin, and it has. Our task force started 
by translating the recommendations into 64 specific action 
items. They were assigned to bureaus and offices with clear 
timelines for completion.
    Eighty-five percent are now on track to be completed by the 
end of March. A number are already completed, and we will use 
this opportunity to take a top-to-bottom look and rethink how 
we make decisions on where, when, and whether people operate in 
high-threat areas, and then how we respond to threats and 
crises.
    We are initiating an annual High Threat Post Review chaired 
by the Secretary of State and ongoing reviews by the Deputy 
Secretaries to ensure that pivotal questions about security do 
reach the highest levels. We will regularize protocols for 
sharing information with Congress. These are designed to 
increase the safety of our diplomats and development experts 
and reduce the chances of another Benghazi happening again.
    We have also been moving forward on a third front--
addressing the broader strategic challenge in North Africa and 
the wider region because, after all, Benghazi did not happen in 
a vacuum. The Arab revolutions have scrambled power dynamics 
and shattered security forces across the region. Instability in 
Mali has created an expanding safe haven for terrorists who 
look to extend their influence and plot further attacks of the 
kind we saw just last week in Algeria.
    And let me offer our deepest condolences to the families of 
the Americans and all the people from many nations who were 
killed and injured in that recent hostage crisis. We are in 
close touch with the Government of Algeria. We stand ready to 
provide assistance. We are seeking to gain a fuller 
understanding of what took place so we can work together with 
Algerians and others to prevent such terrorist attacks in the 
future.
    Concerns about terrorism and instability in North Africa 
are, of course, not new. They have been a top priority for the 
entire administration's national security team. But we have 
been facing a rapidly changing threat environment, and we have 
had to keep working at ways to increase pressure on Al Qaeda in 
the Islamic Maghreb and the other terrorist groups in the 
region.
    In the first hours and days, I conferred with leaders--the 
President of Libya, Foreign Ministers of Tunisia and Morocco--
and then I had a series of meetings at the United Nations 
General Assembly, where there was a special meeting focused on 
Mali and the Sahel. In October, I flew to Algeria to discuss 
the fight against AQIM.
    In November, I sent Deputy Secretary Bill Burns to follow 
up in Algiers. And then in December, in my stead, he cochaired 
an organization we started to respond to some of these threats, 
the Global Counterterrorism Forum, which was meeting in Abu 
Dhabi, as well as a meeting in Tunis of leaders working to 
build new democracies and reform security services.
    We have focused on targeting al-Qaeda's syndicate of 
terror, closing safe havens, cutting off finances, countering 
extremist ideology, slowing the flow of new recruits, and we 
continue to hunt the terrorists responsible for the attacks in 
Benghazi and are determined to bring them to justice. We are 
using our diplomatic and economic tools to support these 
emerging democracies and to strengthen security forces and help 
provide a path away from extremism.
    But let me underscore the importance of the United States 
continuing to lead in the Middle East, in North Africa, and 
around the world. We have come a long way in the past 4 years, 
and we cannot afford to retreat now.
    When America is absent, especially from unstable 
environments, there are consequences. Extremism takes root. Our 
interests suffer. Our security at home is threatened.
    That is why I sent Chris Stevens to Benghazi in the first 
place. Nobody knew the dangers better than Chris, first during 
the revolution and then during the transition--a weak Libyan 
Government, marauding militias, terrorist groups. A bomb 
exploded in the parking lot of his hotel, but he did not waver 
because he understood it was critical for America to be 
represented there at that time.
    Our men and women who serve overseas understand that we 
accept a level of risk to protect the country we love, and they 
represent the best traditions of a bold and generous nation. 
They cannot work in bunkers and do their jobs. So it is our 
responsibility to make sure they have the resources they need 
and to do everything we can to reduce the risks.
    For me, this is not just a matter of policy. It is 
personal. I stood next to President Obama as the Marines 
carried those flag-draped caskets off the plane at Andrews. I 
put my arms around the mothers and fathers, the sisters and 
brothers, the sons and daughters, and the wives left alone to 
raise their children.
    It has been one of the great honors of my life to lead the 
men and women of the State Department and USAID. Nearly 70,000 
serving here in Washington, more than 275 posts around the 
world, they get up and go to work every day--often in difficult 
and dangerous circumstances--because they believe, as we 
believe, the United States is the most extraordinary force for 
peace and progress the world has ever known.
    And when we suffer tragedies overseas, as we have, the 
number of Americans applying to the Foreign Service actually 
increases. That tells us everything we need to know about what 
kind of patriots I am talking about. They do ask what they can 
do for their country, and America is stronger for it.
    So, today, after 4 years in this job, traveling nearly 1 
million miles, visiting 112 countries, my faith in our country 
and our future is stronger than ever. Every time that blue and 
white airplane carrying the words ``United States of America'' 
touches down in some far-off capital, I feel again the honor it 
is to represent the world's indispensible nation. And I am 
confident that with your help, we will keep the United States 
safe, strong, and exceptional.
    So I want to thank this committee for your partnership and 
your support of diplomats and development experts. You know the 
importance of the work they do, day in and day out. You know 
that America's values and vital national security interests are 
at stake.
    And I appreciate what Ranking Member Corker just said. It 
is absolutely critical that this committee and the State 
Department, with your new Secretary and former chairman, work 
together to really understand and address the resources, 
support, and changes that are needed to face what are 
increasingly complex threats.
    I know you share my sense of responsibility and urgency. 
And while we may not agree on everything, let us stay focused 
on what really matters--protecting our people and the country 
we love. And thank you for the support you personally have 
given to me over the last 4 years.
    I now would be happy to take your questions.
    [The prepared statement of Secretary Clinton follows:]

    Prepared Statement of Secretary of State Hillary Rodham Clinton

    Mr. Chairman, Ranking Member, Members of the Committee, thank you 
for this opportunity.
    The terrorist attacks in Benghazi on September 11, 2012, that 
claimed the lives of four brave Americans--Chris Stevens, Sean Smith, 
Tyrone Woods, and Glen Doherty--are part of a broader strategic 
challenge to the United States and our partners in north Africa. Today, 
I want to offer some context for this challenge and share what we've 
learned, how we are protecting our people, and where we can work 
together to honor our fallen colleagues and continue to champion 
America's interests and values.
    Any clear-eyed examination of this matter must begin with this 
sobering fact: Since 1988, there have been 19 Accountability Review 
Boards investigating attacks on American diplomats and their 
facilities. Benghazi joins a long list of tragedies, for our Department 
and for other agencies: hostages taken in Tehran in 1979, our Embassy 
and Marine barracks bombed in Beirut in 1983, Khobar Towers in Saudi 
Arabia in 1996, our Embassies in East Africa in 1998, consulate staff 
murdered in Jeddah in 2004, the Khost attack in 2009, and too many 
others.
    Of course, the list of attacks foiled, crises averted, and lives 
saved is even longer. We should never forget that our security 
professionals get it right 99 percent of the time, against difficult 
odds all over the world. That's why, like my predecessors, I trust them 
with my life.
    Let's also remember that administrations of both parties, in 
partnership with Congress, have made concerted and good faith efforts 
to learn from the tragedies that have occurred, to implement 
recommendations from the Review Boards, to seek necessary resources, 
and to better protect our people from constantly evolving threats. 
That's what the men and women who serve our country deserve. And it's 
what we are doing again now, with your help. As Secretary, I have had 
no higher priority, and no greater responsibility.
    As I have said many times since September 11, I take 
responsibility. Nobody is more committed to getting this right. I am 
determined to leave the State Department and our country safer, 
stronger, and more secure.
    Taking responsibility meant moving quickly in those first uncertain 
hours and days to respond to the immediate crisis and further protect 
our people and posts in high-threat areas across the region and the 
world. It meant launching an independent investigation to determine 
exactly what happened in Benghazi and to recommend steps for 
improvement. And it meant intensifying our efforts to combat terrorism 
and support emerging democracies in north Africa and beyond.
    Let me share some of the lessons we have learned, the steps we have 
taken, and the work we continue to do.
    First, let's start on the night of September 11 itself and those 
difficult early days. I directed our response from the State Department 
and stayed in close contact with officials from across our Government 
and the Libyan Government. So I saw firsthand what Ambassador Thomas 
Pickering and former Chairman of the Joint Chiefs of Staff, Admiral 
Mike Mullen, called ``timely'' and ``exceptional'' coordination. No 
delays in decisionmaking. No denials of support from Washington or from 
the military. And I want to echo the Review Board's praise for the 
valor and courage of our people on the ground--especially the security 
professionals in Benghazi and Tripoli. The Board said our response 
saved American lives in real time--and it did.
    The very next morning, I told the American people that ``heavily 
armed militants assaulted our compound'' and vowed to bring them to 
justice. And I stood with President Obama as he spoke of ``an act of 
terror.''
    You may recall that in that same period, we also saw violent 
attacks on our Embassies in Cairo, Sanaa, Tunis, and Khartoum, as well 
as large protests outside many other posts where thousands of our 
diplomats serve.
    So I immediately ordered a review of our security posture around 
the world, with particular scrutiny for High Threat Posts. We asked the 
Department of Defense to join Interagency Security Assessment Teams and 
to dispatch hundreds of additional Marine Security Guards. I named the 
first Deputy Assistant Secretary of State for High Threat Posts, so 
missions in dangerous places get the attention they need. And we 
reached out to Congress to help address physical vulnerabilities, 
including risks from fire, and to hire additional Diplomatic Security 
personnel.
    Second, even as we took these steps, I also appointed the 
Accountability Review Board led by Ambassador Pickering and Admiral 
Mullen so that we could more fully understand what went wrong and how 
to fix it.
    I have accepted every one of their recommendations--and I asked the 
Deputy Secretary for Management and Resources to lead a task force to 
ensure that all 29 of them are implemented quickly and completely . . . 
as well as to pursue additional steps above and beyond those in the 
Board's report.
    Because of the effort we began in the days after the attacks, work 
is already well underway. And, as I pledged in my letter to you last 
month, implementation has now begun on all 29 recommendations. Our task 
force started by translating the recommendations into 64 specific 
action items. All of these action items were assigned to specific 
bureaus and offices, with clear timelines for completion. Fully 85 
percent are on track to be completed by the end of March, with a number 
completed already.
    We are taking a top-to-bottom look, and rethinking how we make 
decisions on where, when, and how our people operate in high threat 
areas, and how we respond to threats and crises.
    As part of our effort to go above and beyond the Review Board's 
recommendations, we are initiating an annual High Threat Post Review 
chaired by the Secretary of State, and ongoing reviews by the Deputy 
Secretaries, to ensure pivotal questions about security reach the 
highest levels. And we will regularize protocols for sharing 
information with Congress.
    All of these actions are designed to increase the safety of our 
diplomats and development experts and reduce the chances of another 
Benghazi happening again.
    Now, in addition to the immediate action we took and the Review 
Board process, we have been moving forward on a third front: addressing 
the broader strategic challenge in north Africa and the wider region.
    Because Benghazi didn't happen in a vacuum. The Arab revolutions 
have scrambled power dynamics and shattered security forces across the 
region. And instability in Mali has created an expanding safe haven for 
terrorists who look to extend their influence and plot further attacks 
of the kind we saw just last week in Algeria.
    And let me offer my deepest condolences to the families of the 
Americans and all the people from many nations who were killed and 
injured in the recent hostage crisis. We remain in close touch with the 
Government of Algeria and stand ready to provide assistance if needed. 
We are seeking to gain a fuller understanding of what took place so 
that we can work together to prevent terrorist attacks like this in the 
future.
    Concerns about terrorism and instability in north Africa are not 
new. Indeed they have been a top priority for our entire national 
security team. But after Benghazi, we accelerated a diplomatic campaign 
to increase pressure on Al Qaeda in the Islamic Maghreb and other 
terrorist groups across the region.
    In the first hours and days, I conferred with the President of 
Libya and the Foreign Ministers of Tunisia and Morocco. Two weeks 
later, I met with regional leaders at the United Nations General 
Assembly and held a special meeting focused on Mali and the Sahel. In 
October, I flew to Algeria to discuss the fight against AQIM. In 
November, I sent Deputy Secretary Bill Burns to follow up in Algiers. 
And then in December, he cochaired the Global Counterterrorism Forum in 
Abu Dhabi and a meeting in Tunis of leaders working to build new 
democracies and reform security services.
    In all these diplomatic engagements, and in near-constant contacts 
at every level, we have focused on targeting al-Qaeda's syndicate of 
terror--closing safe havens, cutting off finances, countering extremist 
ideology, and slowing the flow of new recruits. We continue to hunt the 
terrorists responsible for the attacks in Benghazi and are determined 
to bring them to justice. And we're also using all our diplomatic and 
economic tools to support the emerging democracies of the region, 
including Libya, to strengthen security forces and provide a path away 
from extremism.
    The United States must continue to lead . . . in the Middle East 
and all around the globe. We have come a long way in the past 4 years. 
We cannot afford to retreat now. When America is absent, especially 
from unstable environments, there are consequences. Extremism takes 
root, our interests suffer, and our security at home is threatened.
    That's why Chris Stevens went to Benghazi in the first place. 
Nobody knew the dangers better than Chris, first during the revolution 
and then during the transition. A weak Libyan Government, marauding 
militias, even terrorist groups . . . a bomb exploded in the parking 
lot of his hotel, but he didn't waver. Because he understood that it 
was critical for America to be represented in that pivotal place at 
that pivotal time.
    Our men and women who serve overseas understand that we accept a 
level of risk to protect this country we love. They represent the best 
traditions of a bold and generous nation. And they cannot work in 
bunkers and do their jobs.
    It is our responsibility to make sure they have the resources they 
need to do their jobs and to do everything we can to reduce the risks 
they face.
    For me, this is not just a matter of policy . . . it's personal.
    I stood next to President Obama as the Marines carried those flag-
draped caskets off the plane at Andrews. I put my arms around the 
mothers and fathers, sisters and brothers, sons and daughters.
    It has been one of the greatest honors of my life to lead the men 
and women of the State Department and USAID. Nearly 70,000 serving here 
in Washington and at more than 275 posts around the world. They get up 
and go to work every day--often in difficult and dangerous 
circumstances thousands of miles from home--because they believe the 
United States is the most extraordinary force for peace and progress 
the earth has ever known.
    And when we suffer tragedies overseas, the number of Americans 
applying to the Foreign Service actually increases. That tells us 
everything we need to know about what kind of patriots I'm talking 
about. They ask what they can do for their country. And America is 
stronger for it.
    Today, after 4 years in this job, after traveling nearly 1 million 
miles and visiting 112 countries around the world, my faith in our 
country and our future is stronger than ever. Every time that blue and 
white airplane carrying the words ``United States of America'' touches 
down in some far-off capital, I feel again the honor it is to represent 
the world's indispensible nation. And I am confident that, with your 
help, we will continue to keep the United States safe, strong, and 
exceptional.
    So I want to thank this committee for your partnership and your 
support of our diplomats and development experts around the world. You 
know the importance of the work they do day in and day out, and that 
America's values and vital national security interests are at stake. It 
is absolutely critical that we work together to ensure they have the 
resources and support they need to face increasingly complex threats.
    I know that you share our sense of responsibility and urgency. And 
while we all may not agree on everything, let's stay focused on what 
really matters: protecting our people and the country we all love.
    Now I am now happy to answer your questions.

    Senator Menendez. Thank you, Madam Secretary, for your 
statement.
    We have a full committee present. So, to give each member 
an opportunity to ask questions in the timeframe that we have, 
I will limit those questions to 5 minutes, and I will start 
myself.
    Madam Secretary, we saw some late night reporting on 
discussions about the physical location of Mission Benghazi, 
and I understand this information came from the production of 
documents by the State Department, we appreciate your 
cooperation in providing those documents.
    My understanding is that the discussion of the location of 
Mission Benghazi was an ongoing one and that the ultimate 
conclusion of Ambassador Stevens was that we needed to be in 
Benghazi, the cradle of the Libyan revolution. That, while he 
was continuously reviewing other location options, it was his 
conclusion--as well as that of security personnel in the State 
Department--that the current mission site was the best choice 
despite a higher price tag because it was more secure than 
returning to the hotel where there had been a bomb and bomb 
threats or moving closer to the annex because it was closer to 
the road.
    Can you give us your insights on the decisionmaking process 
regarding the location of the Benghazi Mission? And as part of 
your answer can you touch upon what actions were you and your 
staff taking the night of September 11 and into September the 
12th?
    Secretary Clinton. Well, first, you are right, Mr. 
Chairman, that there was an ongoing discussion. When Chris 
first landed in Benghazi, he stayed in a hotel, along with 
other representatives of different nations. There were attacks 
in the vicinity, including the parking lot of the hotel.
    The decision was made to move. The compound was selected as 
being a much better location in terms of security than the 
alternatives. But there was an ongoing discussion between Chris 
and others in the Embassy in Tripoli, those going in and out of 
Benghazi, about how best to situate our post there.
    I did see some overnight reporting about a document. I am 
not sure what it is, but I would observe that there were a lot 
of ongoing efforts because it was important that we were 
constantly asking what was the best place. As you said, in 
general, Chris was committed to not only being in Benghazi, but 
to the location. The professionals in Washington paid close 
attention to Chris's judgment, based on his experience and his 
firsthand knowledge.
    And so, we stayed. We continued to try to upgrade the 
facility that was attacked. Obviously, as the ARB has pointed 
out, there were inadequacies in the response, and those are the 
specific kinds of recommendations that we are currently 
implementing.
    Regarding what I was doing on September 11, I was at the 
State Department all day and late into the night. During most 
of the day prior to getting notice of the attack on our 
compound at Benghazi, we were very focused on our Embassy in 
Cairo. That was under assault by a group of protesters.
    We were assessing the security of our Embassy, which is, as 
those of you who have been there, certainly well defensed. But 
there were crowds that were intent upon trying to scale the 
wall, and we were in close communication with our team in 
Cairo.
    I was notified of the attack shortly after 4 p.m. Over the 
following hours, we were in continuous meetings and 
conversations, both within the Department, with our team in 
Tripoli, with the interagency, and internationally. I 
instructed our senior Department officials and our diplomatic 
security personnel to consider every option, to just break down 
the doors of the Libyan officials to get as much security 
support as we possibly could, to coordinate with them.
    I spoke to the National Security Adviser, Tom Donilon, 
several times. I briefed him on developments. I sought all 
possible support from the White House, which they quickly 
provided. Tom was my first call.
    I spoke with our charge in Tripoli to get situation 
updates. I spoke with former CIA Director Petraeus to confer 
and coordinate, given the presence of his facility, which, of 
course, was not well known but was something that we knew and 
wanted to make sure we were closely lashed up together. I 
talked with the then-Libyan National Congress President to 
press him on greater support not only in Benghazi, but also in 
Tripoli.
    I participated in a secure video conference of senior 
officials from the intelligence community, the White House, and 
DOD. We were going over every possible option, reviewing all 
that was available to us, any actions we could take. We were 
reaching out to everyone we could find to try to get an update 
about Ambassador Chris Stevens, also our information 
specialist, Sean Smith. So it was a constant, ongoing 
discussion and sets of meetings.
    I spoke with President Obama later in the evening to bring 
him up to date, to hear his perspective. Obviously, we kept 
talking with everyone during the night. Early in the morning on 
the 12th, I spoke with General Dempsey, again with Tom Donilon.
    The two hardest calls that I made were obviously to the 
families of Ambassador Stevens and Sean Smith. And they, I have 
to say, were extraordinary in their responses, in their 
understanding of the pride we had in both men and gratitude we 
had for their service.
    I would also just quickly add, Mr. Chairman, that while 
this was going on and we were trying to understand it, get on 
top of it, we were continuing to face protests, demonstrations, 
violence across the region and as far as India and Indonesia. 
There were so many protests happening, and thousands of people 
were putting our facilities at risk.
    So we were certainly very determined to do whatever we 
could about Benghazi. We were relieved when we finally got the 
last of the Americans out of Benghazi, but then we were turning 
around, dealing with the very serious threats facing so many of 
our other facilities.
    Senator Menendez. Thank you very much. My time has expired.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Madam Secretary, I agree with you when people go into the 
field to do the things they do, they do it knowing of the risk, 
and I agree with you one of the untold stories here is that of 
the heroic nature of many in Libya and what they did to save 
lives. I met several of the JSOC folks and others that risked 
their lives saving others.
    But I also have to say, in reading all the cables and that 
many of us have done, there were systemic deficiencies. And I 
know you know that. And I would like for you to just speak to 
that for a moment.
    To my knowledge, no one has been held accountable. Our 
staff had a meeting with one of the State Department officials, 
and I hate to use this word again, but it was nothing short of 
bizarre as they talked about the communications. These 
officials were screaming out for more security, and I am just 
wondering if you might mention one reform that would be helpful 
so that you would have known of the needs there of security 
that went undone.
    Secretary Clinton. Well, obviously, I have thought about 
this almost constantly since that date, Senator, because I do 
feel responsible. I feel responsible for the nearly 70,000 
people who work for the State Department. I take it very 
seriously.
    But the specific security requests pertaining to Benghazi, 
you know, were handled by the security professionals in the 
Department. I didn't see those requests. They did not come to 
me. I did not approve them. I did not deny them. That is 
obviously one of the findings that Ambassador Pickering and 
Admiral Mullen made that, you know, these requests do not 
ordinarily come to the Secretary of State.
    Senator Corker. If we could, I respect you tremendously, 
but we have a short amount of time. They did come in to folks.
    Secretary Clinton. That is right.
    Senator Corker. We did have SST people on the ground at no 
cost to the State Department. They were asked to be extended by 
the Ambassador. Someone at the State Department turned that 
down. They were at no charge, 16 officers. So I just wonder 
what has happened inside to make sure that never happens again?
    Secretary Clinton. Well, several things. Not only are we on 
the path to implement all of the ARB recommendations, but we 
have gone beyond that. We did immediately do this high-threat 
assessment, using DOD assets as well as our own. That had never 
been done before.
    We have asked the Congress to help us reallocate funds. The 
Senate has given us that authority. We do not yet have it from 
the House. So that we can get more Marine guards. We can get 
more diplomatic security guards. We can try to put more money 
into the maintenance, the upgrades, construction that is 
needed.
    I created the first-ever--it sounds like it should have 
been done years ago--but first-ever Deputy Assistant Secretary 
for High Threats. I am also recommending that there be a 
regular process that includes the Secretary and the Deputies in 
these decisions because nobody wants to sit where I am and have 
to think now about what could have, should have, would have 
happened in order to avoid this.
    Now, as I said, we have had 19 ARBs. Only two have ever 
been unclassified. The one coming out of the East Africa 
bombings, where there was full transparency, there was a set of 
recommendations, many of which have been implemented, along 
with recommendations from other ARBs. But this committee never 
had a public hearing about the 17 other ARBs because they were 
classified.
    So we are putting into action steps that we think will help 
the next Secretary be able to make these decisions, be part of 
these decisions, have more insight into what is going on, and 
we would obviously welcome the opportunity to work closely with 
a subcommittee or a set of members to make sure that that is 
what is happening.
    Senator Corker. Well, thank you. Many, 19 or 17, have been 
done. I will say none of them have ever been fully implemented.
    Secretary Clinton. Senator, that is not accurate. Because I 
heard you say that when Bill Burns and Tom Nides were here, 
and it shocked me. So we did--we went back. We did a full and 
thorough investigation. The vast majority have been 
implemented, and we will give you a report to that effect.
    Because that is the kind of--to go back to your point, 
Senator, if there were an authorization process, that is the 
kind of information that would be shared. And I see my former 
compatriot on the Armed Services Committee, there is always an 
Armed Services authorization, and there needs always to be a 
Foreign Relations Committee authorization.
    [The written information supplied by the State Department 
follows:]

    There have been 18 previous ARBs, with a total of 164 
recommendations. The Department has implemented 95 percent of these 
past recommendations. The remainder were not implemented because they 
were either not in the purview of 
the State Department to implement; implementation raised alternate 
safety concerns; or alternate actions that were deemed to be more 
effective were taken.
    As the Secretary stated during her testimony, she accepted all 29 
recommendations of the Accountability Review Board (ARB). When the ARB 
report was issued, the Department immediately evaluated the 29 
recommendations, and developed 64 separate taskings needed for their 
implementation. We formed working groups, issued guidance, and 
developed a path to implementation. Some of the recommendations have 
already been implemented; some are well on their way to completion; and 
some will require long-term action, but we have set milestones to 
achieve implementation of all of them. The Department will monitor and 
track these recommendations to ensure their implementation.
    It is important to note that implementing many of the 
recommendations is dependent on sufficient funding. We are seeking 
legislative language that would authorize us to transfer previously 
appropriated funds from one of our accounts to another. We will 
continue to work with Congress on funding and any needed legislative 
authorities.

    Senator Corker. My last question. It is my sense that, as a 
nation, we were woefully unprepared for what happened in 
northern Africa in general. I think you share that view.
    I know you made some opening comments regarding us leading 
in that area. But it seems to me that Benghazi symbolizes just 
the woeful unpreparedness that our Nation had as it relates to 
issues in North Africa, and I hope you will address that as you 
move ahead.
    Secretary Clinton. Well, Senator, let me just briefly 
address what is, I think, one of the key issues for this 
committee, for the administration, for our country. When I was 
here 4 years ago testifying for my confirmation, I do not think 
anybody thought that Mubarak would be gone, Gaddafi would be 
gone, Ben Ali would be gone. That we would have such 
revolutionary change in this region.
    There were hints of it. Several of us said the institutions 
were sinking in the sand, as I said in Doha shortly before 
Tahrir Square. So there was some feeling out there, but I do 
not think any of us predicted this, least of all the people in 
these countries, who then were given a chance to chart their 
own futures.
    This is a great opportunity, as well as a serious threat to 
our country. I hope we seize the opportunity. It is not going 
to be easy because these new countries have no experience with 
democracy. They do not have any real experience among the 
leaders in running countries, in doing security.
    So, yes, we now face a spreading jihadist threat. We have 
driven a lot of the AQ operatives out of the Fatah, out of 
Afghanistan, Pakistan, killed a lot of them, including, of 
course, bin Laden. 
But we have to recognize this is a global movement. We can kill 
leaders, but until we help establish strong democratic 
institutions, until we do a better job communicating our values 
and building relationships, we are going to be faced with this 
level of instability.
    And I do have a lot of thoughts about what more we can and 
should do, given this new reality we face.
    Senator Corker. Thank you again.
    Senator Menendez. Senator Boxer.
    Senator Boxer. Thank you very much.
    Madam Secretary, you have represented our country with 
tremendous strength and poise. You have won us friends, but you 
have always spoken out forcefully where required.
    I want to thank you because this is maybe the last time you 
come before us as Secretary here. I want to thank you for your 
advocacy on behalf of women around the globe. You will be 
sorely missed, but I, for one, hope not for too long.
    As you have said, you were heartbroken by those losses in 
Benghazi. We saw it in your face many times, today as well. You 
were heartbroken personally and professionally. But rather than 
pointing to others for their deficiencies, you stepped up and 
you convened an Accountability Review Board to look into this 
attack in detail, and you asked them to tell it the way they 
saw it.
    And I want to give you my take on that Board. I want to go 
to something Senator Corker said, which I agreed with. The 
first report we got from the intelligence community about a 
week or so after was very confusing. It was not helpful to us. 
All of us, I think, felt that way.
    But I want to speak for myself. The difference between that 
meeting and the meeting we had with those cochairs, which was 
also a classified briefing, couldn't have been more different. 
They were so impressive. They were thorough. They were strong. 
They did call it the way they saw it, the way you wanted them 
to do.
    And I am grateful that you have unequivocally committed to 
ensuring that their recommendations are implemented to the 
fullest extent, and this brings me to a question. As we all 
know, the House of Representatives urged and voted for a cut of 
$300 million for embassy security.
    Now maybe it is irrelevant for some here, but I have a 
message. It does cost money to pay for embassy security or 
police on the beat or military personnel or police here at the 
Capitol that protect us, which we are very grateful for and we 
pay for. It does cost money.
    So, to me, I was not disappointed to hear the cochairs say, 
``Congress must do its part to meet this challenge and provide 
necessary resources to the State Department to address security 
risks and meet mission imperatives.'' Frankly, I think it is a 
no-brainer, and the fact that we would even have a problem with 
it, to me, doesn't make any sense.
    I hope we can work together to get the resources that we 
need for security, which brings me to a question about working 
more closely with the DOD. And here it is. Have you already 
engaged with DOD to provide additional Marines at U.S. 
facilities to fulfill the ARB's recommendation that State and 
DOD work together to provide more capabilities and capacities 
at higher risk posts?
    And before you answer that, could you maybe address the 
issue in Mali right now? When you look at Mali, you see a 
government that is weak. They do not have the best security. 
Are we working on that post?
    Secretary Clinton. Well, Senator, thank you.
    You have raised a lot of very important issues. I will try 
to be as quick as I can in responding to them. Let me start 
with the budget because this is a bipartisan issue.
    Since 2007, the Department has consistently requested 
greater funding for embassy construction and diplomatic 
security. With the exception of 2010, Congress has consistently 
enacted less than requested. Most notably, in 2012, the 
Department received $340 million less than requested, close to 
10 percent less than the request. And then over the last 2 
years, cuts to embassy construction, security, and maintenance 
budgets were almost 10 percent off as well.
    Now the ARB, as you said, has recommended an increase in 
facilities funding to $2.2 billion per year to restore the 
construction levels called for in the 1998 ARB report, the only 
other one that was ever public. And I would go back to 
something the chairman said because this was a point made in 
the ARB. Consistent shortfalls have required the Department to 
prioritize available funding out of security accounts.
    And I will be the first to say that the prioritization 
process was at times imperfect, but as the ARB said, the funds 
provided were inadequate. So we need to work together to 
overcome that. We are asking for funding for more Marine 
security guards, for refilling the capital account so that we 
can begin to do the kind of upgrades and construction that is 
needed.
    Deputy Secretary Nides briefed House and Senate 
appropriations and authorizing staff. We have sent letters to 
the House and Senate leadership to ask for transfer authority 
language. Not new money right now, but transfer authority 
language. The Senate was good enough to put it into the Senate 
version of the Sandy supplemental. It did not get into the 
House side. So we are still looking for the House to act.
    With respect to Mali, Senator, there was a country that had 
been making progress on its democracy. Unfortunately, it 
suffered a military coup by low-ranking military officers, 
which threw it into a state of instability with the Tuaregs, 
who, as you know, some groups of, as well as other groups, had 
been in the employ of Gaddafi for years. He used them as 
mercenaries.
    With his fall, they came out of Libya, bringing huge 
amounts of weapons from the enormous stores of weapons that 
Gaddafi had that insurgents liberated, as well as the others. 
And they came into northern Mali. At the same time, there was a 
move by Al Qaeda in the Maghreb to establish a base in northern 
Mali.
    We have been working to try to upgrade security around 
northern Mali among a number of the countries. Algeria is the 
only one with any real ability to do that. Most of these 
countries do not have the capacity to do that.
    We are now trying to put together an African force from 
ECOWAS so that African soldiers will be in the front of this 
fight. The Malians asked the French to come in. Obviously, 
France is 
one of our oldest allies. We are trying to provide support to 
them. But this is going to be a very serious ongoing threat 
because if you look at the size of northern Mali, if you look 
at the topography, it is not only desert. It is caves. Sounds 
reminiscent. We are in for a struggle.
    But it is a necessary struggle. We cannot permit northern 
Mali to become a safe haven. People say to me all the time, 
well, AQIM has not attacked the United States. Well, before 9/
11/2001, we hadn't been attacked on our homeland since I guess 
the War of 1812 and Pearl Harbor. So you can not say, well, 
because they haven't done something, they are not going to do 
it.
    This is not only a terrorist syndicate, it is a criminal 
enterprise. So make no mistake about it. We have got to have a 
better strategy, and I would hope we would have not only a 
strategy that understands making it possible for these 
governments to defend themselves better, for people to 
understand and agree with us that these terrorists are not in 
any way representative of their values, but that we can bolster 
democracy and try to give these Arab revolutions a real chance 
to succeed.
    Senator Boxer. Thank you.
    Senator Menendez. Senator Risch.
    Senator Risch. Madam Secretary, thank you for your service.
    Secretary Clinton. Thank you, Senator.
    Senator Risch. And thank you for the kindness you have 
shown this committee over the time you have been there. I 
particularly appreciate your facilitating the meetings with us 
at the State Department with yourself when we have had issues.
    Moving to the issues at hand, this morning the national 
media is reporting that some of the--or a number of the 
attackers in Algeria are people who participated in the attack 
in Benghazi. Can you confirm that for us this morning?
    Secretary Clinton. Senator, I cannot confirm it. I can give 
you the background that I was able to obtain. This information 
is coming from the Algerian Government related to their 
questioning of certain of the terrorists that they took alive. 
We do not have any way to confirm it as yet, but I can 
certainly assure you we will do everything we can to determine 
that.
    You may know that Director Mueller was just in the region 
meeting with leaders. He is very well aware that we have to 
track every one of these connections, and this will be a new 
thread that will be followed.
    Senator Risch. I appreciate that. Only one person has been 
arrested regarding the attack on Benghazi and was then 
released. Can you tell us whether he was one of the people that 
participated in the Algerian attack?
    Secretary Clinton. We have no information to that effect. I 
think you are referring to the Tunisian, Harzi, who appeared in 
a Tunisian court. Upon his release, I called the Tunisian Prime 
Minister. A few days later, Director Mueller met with the 
Tunisian Prime Minister.
    We have been assured that he is under the monitoring of the 
court. He was released because at that time--and Director 
Mueller and I spoke about this at some length--there was not an 
ability for evidence to be presented yet that was capable of 
being presented in an open court.
    But the Tunisians have assured us that they are keeping an 
eye on him. I have no reason to believe he is not still in 
Tunis, but we are checking that all the time.
    Senator Risch. Thank you.
    You just testified in your prepared remarks that you said, 
``The very next morning,'' which would have been Wednesday 
morning, ``I told the American people that `heavily armed 
militants assaulted our compound' and vowed to bring them to 
justice.''
    I am assuming that you had rock solid evidence to make such 
a bold statement at that time?
    Secretary Clinton. Well, we had four dead people, and we 
had several injured, one seriously, who is still in Walter 
Reed. And although we did not have the chance yet to meet with 
any of our returnees, our team in Tripoli had received them, 
gotten medical care for them, and had sent them on.
    So we knew that, clearly, there was an attack, a heavily 
armed attack. Who these people were, where they came from, why 
they did it, that was still to be determined.
    Senator Risch. I think you probably know where I am going 
with this. The next sentence is, ``And I stood with President 
Obama as he spoke of an act of terror.''
    Secretary Clinton. Right.
    Senator Risch. And, of course, there has been a lot of 
debate as to the context that the word ``terror'' was used in. 
But be that as it may, I want to move to the next Sunday 
morning when Ambassador Rice went to the Sunday morning talk 
shows. And I think we all realize this happened at a 
politically charged time here in the country as we approached 
an election. Notwithstanding that, the American people are 
still entitled to be told the truth about this.
    Did you select Ambassador Rice to deliver the message to 
the American people?
    Secretary Clinton. No; I did not, Senator. And let me take 
this opportunity to address this because, obviously, even 
though I have not had a chance to testify, I certainly have 
seen the resulting debate and concerns about this.
    You are right, it was a terrorist attack. I called it an 
attack by heavily armed militants.
    Senator Risch. Well done.
    Secretary Clinton. And, you know, that is clearly what 
happened. We know that. But second, the harder question is what 
caused it, and that we did not know. We did not know who the 
attackers were, what their motives were.
    Third, as the ARB makes clear after their months of 
research, the picture remains still somewhat complicated. And I 
say that because in the unclassified ARB, it is, ``Key 
questions surround the identity, actions, and motivations of 
the perpetrators remain to be determined.'' I recommend that 
all members and staff read the classified version of the ARB, 
which goes into greater detail. I obviously cannot speak to it, 
but it does go into greater detail because there were a variety 
of potential causes and triggers for this attack.
    There is evidence that the attacks were deliberate, 
opportunistic, and precoordinated, but not necessarily 
indicative of extensive planning. And fourth, Senator, I would 
say that I personally was not focused on talking points. I was 
focused on keeping our people safe because as I said, I have a 
very serious threat environment in Yemen. It turned out we had 
people getting over that wall in Cairo doing damage until we 
got them out. We had a serious threat against our Embassy in 
Tunis. I had to call the President of Tunisia and beg him to 
send reinforcements, which he did, to finally save our Embassy, 
which could have been disastrous. They burned and trashed our 
school.
    So I was pretty occupied about keeping our people safe, 
doing what needed to be done in the followup to Benghazi. I 
really do not think anybody in the administration was really 
focused on that so much as trying to figure out, you know, what 
we should be doing.
    And, you know, I was not involved in the talking points 
process. As I understand it, as I have been told, it was a 
typical interagency process where staff, including from the 
State Department, all participated to try to come up with 
whatever was going to be made publicly available. And it was an 
intelligence product, and it is my understanding that the 
intelligence community is working with appropriate committees 
to kind of explain the whole process.
    Senator Risch. Well, thank you. I have some followup 
questions to that, but my time is up. But I gather you still 
stand by the statement you made less than 24 hours that heavily 
armed militants assaulted our compound, and that you vowed to 
bring them to justice. You still stand by that.
    Secretary Clinton. Absolutely.
    Senator Risch. Thank you.
    Senator Menendez. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Secretary Clinton, 
first, congratulations, and thank you for your extraordinary 
service to our country during these past 4 years as Secretary 
of State. I believe the world is safer today because America is 
better understood around the world. And you have been 
instrumental in integrating diplomacy in our national security 
agenda. And I thank you for that because I do think it has paid 
off in heavy dividends for the American people.
    I particularly want to acknowledge your leadership in 
advancing basic rights. Senator Boxer already acknowledged the 
gender equity issues that you have taken an international 
leadership on. I also want to thank you for your help in 
dealing with corruption, particularly with transparency in the 
extractive industries and the progress that we have made in 
that regard.
    Benghazi was a tragedy. We have all acknowledged that, the 
loss of American life. And we have also acknowledged the 
bravery of those people on the ground. They did extraordinary 
service and saved lives, and that is what they are trained to 
do, and we want to make sure that we acknowledge that.
    Also let me just point out that you have been very open 
with the committee. We had a hearing on December 20 with your 
Deputies, and they provided all the information. And you are 
here today, and we thank you very much for that.
    I want to follow up on one area of northern Africa. You 
point out the risk factors that we currently have in northern 
Africa. Algeria is a reminder of the global security concerns. 
We do not know, as Senator Risch pointed out, the individuals 
who may have been involved in Libya may have been in Algeria. 
We do not know that. But we do know there are reports from the 
United Nations and others that weapons have gotten from Libya 
into Algeria, which points out our need, as we look at 
transitions occurring in that region, Syria, Assad is not going 
to be there we think much longer. There are a lot of weapons in 
Syria.
    Do we have a strategy to make sure as we go through 
transition in countries that their weapons are--we are mindful 
that these weapons could end up harming U.S. interests. And it 
needs to be part of our strategy to make sure as we support 
alternative governments and the rebels, that there is a strong 
priority in protecting the source of these weapons not ending 
up harming Americans or harming our interests.
    Secretary Clinton. Well, Senator, you are absolutely right. 
One of the reasons that we and other government agencies were 
present in Benghazi is exactly that. We had a concerted effort 
to try to track down and find and recover as many man pads and 
other very dangerous weapons as possible.
    Libya was awash in weapons before the revolution. Obviously 
there were additional weapons introduced. But the vast, vast 
majority came out of Gaddafi warehouses and were, as they were 
saying, liberated and then went on the black market, were 
seized by militias, seized by other groups, and have made their 
way out of Libya into other countries in the region, and have 
made their way to Syria, we believe.
    It is a redline for this administration with respect to 
Syria concerning the use of chemical weapons. Syria, as you 
probably know, in addition to having the fourth-largest army 
before this revolution, has a very significant supply of 
chemical and biological weapons.
    Given the instability in Syria right now, what we are 
trying to do is to coordinate closely with a number of like-
minded nations, neighbors, and partners to be able to work to 
try to prevent those from falling into the wrong hands--
jihadist hands, Hezbollah hands--but also to try to work with 
the internal opposition for them to understand the dangers that 
are posed.
    So this Pandora's box, if you will, of weapons coming out 
of these countries in the Middle East and North Africa is the 
source of one of our biggest threats. There is no doubt that 
the Algerian terrorists had weapons from Libya. There is no 
doubt that the Malian remnants of AQIM have weapons from Libya. 
So we just have to do a much better job.
    The final thing I would say about this is, you know, 
AFRICOM was stood up about 10 years ago. I think a lot of 
people at the time wondered why would we have another command 
in the world and why in Africa. I now think we need to pay much 
more attention to AFRICOM, to its capacity inside Africa. It is 
based in Stuttgart, Germany, for all kinds of complicated 
logistical and political reasons. Carter Ham has been a very 
dedicated leader of AFRICOM during his time there.
    But we are going to see more and more demands on AFRICOM, 
and I think that is something else that the Senate and the 
House are going to have to address.
    Senator Cardin. Thank you, Madam Secretary.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you. Madam Secretary, we all wish this 
had never happened so this hearing would never had to have 
happened, but we are glad to see you here, and wish you all the 
best.
    And secondarily, I want to share the sentiments of my other 
colleagues of tremendous respect for the hard work and service 
that you have put in on behalf of our country, both as a Member 
of this Chamber and then obviously now in the role that you 
have.
    One of the things that I am most interested in exploring 
with you today a little bit is how information flows within the 
State Department, and looking forward, how we can prevent some 
of this from happening.
    And so I was curious about a number of things. First of 
all, were you ever asked to participate in any sort of internal 
or interagency meeting before this attack with regard to the 
deteriorating security situation in Libya?
    Secretary Clinton. Well, Senator, you know, again, I 
appreciate your kind words, you know, and I reiterate my taking 
responsibility. And as I have already said, with specific 
security requests, they did not come to me. I had no knowledge 
of them.
    With regard to the situation in Libya, not just eastern 
Libya, across Libya, there were a number of conversations and 
meetings to try to see what we could do while Libya went 
through this transition from transitional government, to 
interim government, to elections, to try to get in there and 
help them with security, because it was clear that that was 
going to be one of their highest needs once they finally got 
stabilized. So, you know, there were a number of meetings.
    And I, personally, went to Libya in October 2011. I spoke 
with the then-leadership. I met with them in international 
settings. We sent teams out both civilian and military experts 
to try to help them.
    Until recently while they were going through their 
transitions, it was a very difficult conversation because they 
did not have, you know, the authority they thought. But now we 
are beginning, and we have a long list of ways that we are 
trying to help improve security in Libya.
    Senator Rubio. For example, the October 2011 meeting, at 
that meeting, did this issue come up with regards to the 
inability of the Libyan Government to protect our diplomatic 
institutions? Did that issue come up at all in that 
conversation?
    Secretary Clinton. Well, we obviously talked a great deal 
about the deteriorating threat environment in Libya. One of the 
reasons we had our own people on the ground, and why we were 
looking to try to figure out how to better protect Benghazi, 
and how to have understandings with those in the annex is 
because it is a host country responsibility, but, you know, 
they were not in a position to do what we would expect from an 
organized country. But they did have the militias.
    And, you know, the February 17 Brigade had proven to be 
responsive in the past prior to 9/11. Other militias in Tripoli 
had proven to be responsive. You know, when I landed in 
Tripoli, I was met by the Zintan militia. That was the welcome 
I had, all these guys dressed completely in black, holding 
their automatic weapons. That was my welcoming party.
    So we knew that we were piecing together what a host-nation 
was not yet able to.
    Senator Rubio. Right. And then there was another meeting on 
March 2012. So just to be clear, by October 2011 and then again 
in March 2012, I believe that was here with the Prime Minister. 
And neither one of these meetings was there a specific 
conversation between you and them with regards to concerns that 
we had that of not just the deteriorating security situation, 
but the inability of them as a host-country to meet their 
obligations to provide security.
    Secretary Clinton. Of course.
    Senator Rubio. There was a conversation.
    Secretary Clinton. Oh, absolutely. I mean, this was a 
constant conversation, Senator. And what I found with the 
Libyans was willingness, but not capacity. You know, in 
Tunisia, as I told you, they had capacity, but I had to call 
and just tell them we had to get that capacity out there 
because, you know, they were still trying to figure out how to 
be a state without being a security state. With Cairo, we had 
to call and tell the Egyptians get your people out there.
    So with Libya it was different. The Libyans were very 
responsive, very willing, but no levers to pull. And what we 
have been trying to do, and, you know, we need your help to 
help us pay for what we are trying to do, we are trying to help 
them build a decent security force, to try to rein in the 
militias as best they can. So this was a constant conversation.
    Senator Rubio. Before the attack in Benghazi, what had we 
done specifically to help them build their security capacities?
    Secretary Clinton. Well, there is a long list, and I will 
be happy to provide that to you because it is filled with, you 
know, training, with equipment, with the kind of planning that 
they had not done before. And I would be happy to send you the 
detail on that, Senator.
    [The written information supplied by the State Department 
follows:]

    Libyan officials have requested U.S. advice and assistance in 
rebuilding their security sector architecture and establishing control 
over their land borders. Since the revolution, the United States has 
provided the Government of Libya with targeted technical assistance in 
a number of critical areas to help establish security sector 
institutions appropriate for a democratic state, and to develop the 
capacities needed to control loose weapons, counterterrorism, and 
improve border security management.
    During multiple visits to Libya by the Department of Defense's 
Defense Institution Reform Initiative in 2012, we advised the Libyan 
Ministry of Defense on establishing defense institutions and armed 
forces that are unified, capable, and subject to civilian control and 
the rule of law. Furthermore we are providing training for Libyan 
military leaders in military officer professional development schools 
and familiarization visits to the United States, and provided 
assistance to develop an English learning lab to promote military-to-
military cooperation. We have also been providing counterterrorism 
training to the Libyan military.
    Our FY 2012 bilateral budget for Libya includes $800,000 in Anti-
Terrorism Assistance to enhance the government's control through law 
enforcement, border security, and investigation capacity assistance. 
This budget also includes $1.3 million in assistance to build 
capability and capacity among Libya's border security agencies to 
detect, interdict, investigate, and prosecute illicit weapons 
transfers. This assistance awaits resolution of a hold in the House of 
Representatives.
    Further, we have been working with the Libyan authorities since 
August 2011 to secure and disable Qadhafi-era weapons stockpiles. Our 
Conventional Weapons Destruction programs have identified Libya's 
ammunition storage areas and continue to inventory and control 
conventional weapons and munitions with an emphasis on man-portable air 
defense systems and other advanced conventional weapons with the help 
of trained Libyan nationals. On September 4, 2012, we designated Libya 
as a country eligible for the Global Security Contingency Fund, a joint 
Department of Defense and State initiative pooling together resources 
and expertise to provide security assistance.

    Senator Menendez. Senator Casey.
    Senator Casey. Madam Secretary, thank you for being here 
today to provide the assessment. I am going to ask you a 
question that relates to the implementation of the 
Accountability Review Board recommendations.
    Before I do that, I want to express what I think is a 
widely shared sentiment, both by way of gratitude and 
commendation for your work. We do not have time today to do a 
full listing of all the achievements that you should get credit 
for, but I will mention maybe two or three in light of the work 
that you have done and some of the work we have done together.
    I want to thank you for your work on the terribly difficult 
challenge of dealing with and reducing the flow of calcium 
ammonium nitrate from Pakistan into Afghanistan. Calcium 
ammonium nitrate finds its way into the roadside bombs that 
kill our troops, known more popularly as IEDs.
    I also want to commend you for your work that was mentioned 
by Senator Boxer and others on behalf of women throughout the 
world, but also women and girls particularly in Afghanistan. 
Third, even though we are still in the throes of responding to 
the challenge in Syria, the great work that you have done on 
humanitarian assistance and other elements of that strategy 
that we have worked on together.
    Also I want to commend not just the approach, but the 
remark you made earlier about not retrenching and not 
retreating when it comes to getting that balance right between 
engagement and security, both high priorities.
    I am glad you were so specific on page 3 of your testimony, 
about the details on implementation. Twenty-nine 
recommendations by the Board have translated into a set of 64 
specific action items. You said in your testimony, ``Fully 85 
percent are on track to be completed by the end of March with a 
number completed already.''
    I will ask you one question about that and then one 
followup. What, if any, impediments to implementation do you 
perceive right now, and are there impediments to meeting those 
deadlines that this committee and the Congress can help you 
with by way of meeting that deadline and implementation?
    Secretary Clinton. Well, thank you, Senator. And let me 
thank you for those three topics you covered, and particularly 
your very clear focus on the IED problem and the ammonium 
nitrate problem in Pakistan. You and I have talked about this. 
You have gone there. I have gone there and carried that 
message, and I thank you for making it an issue.
    Let me say that we need your help. We need your help, No. 
1, to hold us accountable, you know, to keep asking whoever 
sits in this chair or anybody else in the Department with any 
responsibility in this area, what are you doing and how are you 
doing it. And it will help to clear up misconceptions, like no 
ARB recommendations have ever been fully implemented, which I 
know is not the case. But it will also help to keep driving the 
change.
    You know, I really believe that an authorization process 
will dramatically change the dynamic, and I strongly urge it be 
tried. And again I go back to my Armed Services Committee 
experience with Senator McCain over those years. We had 
subcommittees. We took it very seriously. We held hearings. We 
brought people in. We had a 3-day markup that was sacrosanct. 
But we also had the Quadrennial Defense Review, the QDR, where 
the Defense Department submitted that, and it helped to provide 
a framework.
    So when I got to the State Department, I said there is 
nothing like that at the State Department, so I started the 
first ever Quadrennial Diplomacy and Development Review, the 
first ever QDDR. You can help me continue that and make the 
Department have to ask the hard questions if you legislate it 
the way the QDR is legislated for the Defense Department.
    Second, you can help by making sure that the needs we come 
to you with, like what are the training needs, the budgetary 
needs, the bureaucratic changes that are needed, that you help 
support that. And certainly we have talked a little bit about 
the budget, but getting that transfer authority, if you can 
help us with the House. It is $1.4 billion. Marine security 
guard detachment, $553 million. We have been closely 
coordinating with DOD. Historically Marine security guards do 
not do personal security. They only do protection of classified 
materials. So we are working through what the guards will do 
and how we can use more of them.
    Second, more diplomatic security personnel, $130 million. 
That would fund an additional 155 DS personnel and related 
equipment. And then facility construction upgrades, $736 
million. We are going to have periodic reviews by these teams. 
I started the Defense/State interagency security assessment 
teams. We are going to start a High Threat Post review by the 
Secretary, which had not happened before.
    We are going to strengthen the mutual security agreements 
between the State Department and other government agencies when 
they are not colocated. We had a very good relationship with 
the annex in Benghazi. We helped them. They helped us. But 
there was not anything that was--it was more on the ground 
working together. It was not part of an overall template.
    So there is a lot that I think we can take from this ARB 
because, you know, I told Ambassador Pickering and Admiral 
Mullen, put it out there, you know. I want to know more than 
anybody what happened. Do not hold any punches. Tell us what 
the facts are. But now we have to act on it or shame on us.
    Senator Casey. Thanks very much.
    Senator Menendez. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman, and Madam 
Secretary, I would like to join my colleagues in, you know, 
thanking you for your service sincerely. And also I appreciate 
the fact that you are here testifying, and glad that you are 
looking in good health.
    Secretary Clinton. Thank you.
    Senator Johnson. Did you--were you fully aware in real 
time--again, I realize how big your job is and everything is 
erupting in the Middle East this time. Were you fully aware of 
these 20 incidents reported in the ARB in real time?
    Secretary Clinton. I was aware of the ones that were 
brought to my attention. They were part of our ongoing 
discussion about the deteriorating threat environment in 
eastern Libya. We certainly were very conscious of them.
    I was assured by our security professionals that repairs 
were underway. Additional security upgrades had taken place.
    Senator Johnson. Thank you. Did you see personally the 
cable on, I believe it was August 12 specifically asking for 
basically reinforcements for the security detail who was going 
to be evacuating or leaving in August? Did you see that 
personally?
    Secretary Clinton. No, sir.
    Senator Johnson. OK. When you read the ARB, it strikes me 
how certain the people were that the attacks started at 9:40 
Benghazi time. When was the first time you spoke to or have you 
ever spoken to the returnees, the evacuees? Did you personally 
speak to those folks?
    Secretary Clinton. I have spoken to one of them, but I 
waited until after the ARB had done its investigation because I 
did not want there to be anybody raising any issue that I had 
spoken to anyone before the ARB conducted its investigation.
    Senator Johnson. How many people were evacuated from Libya?
    Secretary Clinton. Well, the numbers are a little bit hard 
to pin down because of our other friends.
    Senator Johnson. Approximately.
    Secretary Clinton. Approximately 25 to 30.
    Senator Johnson. Did anybody in the State Department talk 
to those folks very shortly afterward?
    Secretary Clinton. There was discussion going on afterward, 
but once the investigation started, the FBI spoke to them 
before we spoke to them. And so other than our people in 
Tripoli, which I think you are talking about Washington, right?
    Senator Johnson. Yes.
    Secretary Clinton. Yes.
    Senator Johnson. The point I am making is a very simple 
phone call to these individuals I think would have ascertained 
immediately that there was no protest prior to this. I mean, 
this attack started at 9:40 p.m. Benghazi time, and it was an 
assault. And I appreciate the fact that you called it an 
assault. But, I mean, I am going back to then-Ambassador Rice 5 
days later going on the Sunday shows and what I would say 
purposefully misleading the American public.
    Secretary Clinton. Well, Senator--yes.
    Senator Johnson. Why was that not known? And again, I 
appreciate the fact of the transparency of this hearing, but 
why were we not transparent to that point in time?
    Secretary Clinton. Well, first of all, Senator, I would say 
that once the assault happened and once we got our people 
rescued and out, our most immediate concern was, No. 1, taking 
care of their injuries. As I said, I still have a DS agent at 
Walter Reed seriously injured. Getting them into Frankfurt, 
Ramstein, to get taken care of, the FBI going over immediately 
to start talking to them. We did not think it was appropriate 
for us to talk to them before the FBI conducted their 
interviews. And we did not--I think this is accurate, sir. I 
certainly did not know of any reports that contradicted the IC 
talking points at the time that Ambassador Rice went on the TV 
shows.
    And, you know, I just want to say that, you know, people 
have accused Ambassador Rice and the administration of, you 
know, misleading Americans. I can say trying to be in the 
middle of this and understanding what was going on, nothing 
could be further from the truth. Was information developing? 
Was the situation fluid? Would we reach conclusion later that 
were not reached initially? And I appreciate the----
    Senator Johnson. But, Madam Secretary, do you disagree with 
me that a simple phone call to those evacuees to determine what 
happened would have ascertained immediately that there was no 
protest? I mean, that was a piece of information that could 
have been easily, easily obtained.
    Secretary Clinton. Well, but, Senator, again----
    Senator Johnson. Within hours if not days.
    Secretary Clinton. Senator, you know, when you are in these 
positions, the last thing you want to do is interfere with any 
other process that is going on, No. 1.
    Senator Johnson. I realize that is a good excuse.
    Secretary Clinton. No. 2--well, no, it is the fact. No. 2, 
I would recommend highly you read both what the ARB said about 
it and the classified ARB because even today, there are 
questions being raised.
    Now, we have no doubt they were terrorists. They were 
militants. They attacked us. They killed our people. But what 
was going on and why they were doing what they were doing is 
still--no.
    Senator Johnson. No, no, no. Again, we were misled that 
there were supposedly protests and then something sprang out of 
that, and assaults sprang out of that. And that was easily 
ascertained that that was not the fact. And the American people 
could have known that within days, and they did not know that.
    Secretary Clinton. And with all due respect, the fact is we 
had four dead Americans.
    Senator Johnson. I understand.
    Secretary Clinton. Was it because of a protest or was it 
because of guys out for a walk one night who decided they would 
go kill some Americans? What difference, at this point, does it 
make? It is our job to figure out what happened and do 
everything we can to prevent it from ever happening again, 
Senator.
    Now, honestly I will do my best to answer your questions 
about this. But the fact is that people were trying in real 
time to get to the best information. The IC has a process, I 
understand, going with the other committees to explain how 
these talking points came out. But, you know, to be clear, it 
is, from my perspective, less important today looking backward 
as to why these militants decided they did it than to find them 
and bring them to justice. And then maybe we will figure out 
what was going on in the meantime.
    Senator Johnson. OK. Thank you, Madam Secretary.
    Senator Menendez. Senator Shaheen.
    Senator Shaheen. Thank you very much, Secretary Clinton. 
And I want to echo the praise from my colleagues for your 
extraordinary service. And I want to thank you for your 
leadership on Benghazi, for taking responsibility for what 
happened there, for initiating an investigation so we would 
understand what happened, for moving forward to address threats 
in other high-risk areas, and for all of your efforts to 
implement the recommendations of the Accountability Review 
Board report. Thank you. That is the kind of leadership we want 
to see across our government.
    I want to first go back to what I thought you said about 
still looking for the funding to be transferred, the $1.3 
billion----
    Secretary Clinton. Four.
    Senator Shaheen. Four billion from the OCO account to 
address the security threats not just in Libya, but around the 
world. And do I understand that we still have not had that 
money transferred, and so that means that the $553 million for 
Marine security guards, the $130 million for diplomatic 
security, the $691 million for security installations, that is 
all on hold, and so we cannot move forward until that has been 
approved by the House?
    Secretary Clinton. Well, now we have to start over because 
it was in the Senate version of Sandy. It was not put into the 
House version of Sandy. So, no, we cannot move money we already 
have to address the needs and deficiencies that the ARB has 
recommended we do.
    Senator Shaheen. Well, I would just echo the comments that 
have been made already by this committee and by you that this 
is action that we need to get moving on immediately, because we 
still have people at risk around the world, and we need to take 
the action that is going to ensure their security. So I would 
certainly urge the chairman and the ranking member to move the 
committee to do everything we can to make this happen.
    I want to go back to something that Secretary Nides said at 
the hearing on December 20, because I asked him about the 
cooperation between the Department of Defense and State. And 
what the situation was on the ground before the Benghazi attack 
in terms of the placement of our military in the region, he 
talked about the unprecedented cooperation between State and 
Defense in response to Benghazi.
    But I wonder if you could talk about how we ensure that 
this is a standard way of doing business, and that we are 
acting in cooperation when we are looking at the threats facing 
us, particularly as we look at what is happening in northern 
Africa and across the Middle East.
    Secretary Clinton. Well, Senator, that is a really 
important and timely question because certainly our cooperation 
around this crisis was exemplary. You know, the President told 
the Secretary and the Chairman to do everything they possibly 
could, to spare no effort or resource. And we had a very good 
interagency response as the ARB found.
    But the fact is we have to look closely now at what more 
State and DOD can do together to prepare for contingencies such 
as this. And I think it is a challenge that needs to be taken 
up because in Iraq and now in Afghanistan, our diplomats and 
our military work closely together. But as we saw in Iraq, when 
the military left, you know, that was putting a lot of burdens 
on our civilians in Iraq that are very difficult for us to be 
able to address because we relied on our DOD colleagues for so 
much.
    Similarly, as we are starting to look at the drawdown in 
Afghanistan, what kind of civilian presence are we going to be 
able to leave there, and what can DOD do to help us to try to 
determine what that can and should be?
    And I think you get a sense of the challenge of this from a 
statement that Admiral Mullen made. You know, he said, ``On the 
night of the attacks, Benghazi, Tripoli, and Washington 
communicated and coordinated effectively with each other. They 
looped in the military right away. The interagency response was 
timely and appropriate, but there was simply not enough time 
for U.S. military forces to have made a difference. Having said 
that,'' Admiral Mullen goes on, ``it is not reasonable nor 
feasible to tether U.S. Forces at the ready to respond to 
protect every high-risk post in the world.''
    So we have to look at this from the State Department and 
the Department of Defense perspective. And we do not have 
assets of any significance right now on the African Continent. 
We are only building that up. And so what do we need in Africa? 
What countries will welcome us there, give us both our military 
and civilian teams a good, safe base out of which to operate. 
So if we are focusing just on Africa, and particularly, North 
Africa right now, there has got to be a great deal of planning 
and coordination between Department of Defense and AFRICOM and 
between the State Department and the rest of the 
administration.
    Senator Shaheen. Thank you.
    Senator Menendez. Senator Flake.
    Senator Flake. Thank you, Madam Secretary. Thank you for 
your testimony and also thank you, as others have said, for 
your service. Traveling over a million miles and more than 100 
countries, I think those of us who have not done it cannot 
appreciate how difficult that is and the commitment that you 
have had to it over the years. And I thank you.
    With regard to the appearance of Dr. Rice on the morning 
shows, you mentioned that you did not select her. Were you 
consulted in that decision?
    Secretary Clinton. No. No; but it would not be in any way 
unusual for Ambassador Rice to represent the administration on 
a foreign relations issue.
    Senator Flake. Right. I do not think it was either. But 
afterward, after she testified, it was clear that what she 
testified to was at variance with a lot of communications from 
the State Department, and a lot of the information that had 
been gathered, and things that had been said by yourself and 
others at the State Department.
    Can you just enlighten us a bit as to discussions that went 
on at the State Department after that testimony? Was there--I 
mean, these are professionals that you oversee who do a lot of 
hard work to give analysis and this kind of assessment. What 
she said was clearly at variance with a lot of the research and 
analysis that had gone on about the nature of these attacks. 
Can you just enlighten us as to what discussions were had at 
the State Department after this testimony?
    Secretary Clinton. Well, I do not think--I cannot speak to 
any conversation I specifically had because the conversations 
were ongoing before and after Ambassador Rice's appearance on 
the Sunday talk shows. And we did not conclude finally that 
there were no protests at all until days after the attack.
    So maybe it was an abundance of caution. Maybe it was 
trying to make sure we did not step on anybody's toes while we 
were gathering information. Maybe it was because the IC was 
still looking at all of their sources and having different 
threads coming in. But, you know, as the ARB said, even today 
the motivations, the actions before they went onto the 
compound, all of that is still not nailed down.
    So I think we were trying very hard to provide information. 
Maybe one of the lessons learned here is, you know, just 
withhold. Do not say what you do not know for sure until it is 
finally decided, but that is not part of who we are as 
Americans and as public officials. We get out there. We say 
here is what we think happened. It is subject to change.
    And so I think we all wish that nobody had ever in any way 
raised doubts, but certainly Ambassador Rice and all the other 
administration officials were speaking off of what had been 
determined were the most acceptable talking points.
    Senator Flake. All right. Well, I think we know now that 
the talking points--we do not exactly know where they were 
changed or how they were changed, but they were changed or 
altered. And I think that we can all concede that we were not 
given a clear picture of what went on.
    Secretary Clinton. Well, but, Senator, you know, we did not 
have a clear picture. I wish I could sit here today and tell 
you that within days, within a week, by September 20 when we 
came up here we had a clear picture. We did not have a clear 
picture. And that--you know, if you wish to fault the 
administration, it is that we did not have a clear picture, and 
we probably did not do as clear a job explaining that we did 
not have a clear picture until days later, creating what I 
think are legitimate questions, you know.
    I understand--I have been on the other side of the table. I 
understand trying to figure out what was going on, and why were 
we told this, that, and the other. But I can only assure you 
that as the information came to light and as people thought it 
was reliable, we shared it, but that took some time.
    Senator Flake. Right. Thank you. In the remaining seconds 
left, you mentioned that many of the recommendations have now 
been put in place. There are protocols in place to make sure 
that if security is not adequate, that we move our diplomats 
and others to places where they are more secure or whatever.
    But let me just say there were protocols in place before 
this. There were tripwires that we tripped. And the actions 
that were outlined to be taken were not taken. How can we be 
assured here that the new protocols that are in place with 
these new recommendations being implemented will be followed or 
adhered to, because they clearly were not before.
    Secretary Clinton. Well, Senator, I want to make clear that 
no one in the State Department, the intelligence community, any 
other agency ever recommended that we close Benghazi. We were 
clear-eyed about the threats and the dangers as they were 
developing in eastern Libya and in Benghazi. But there was no 
decision made and nothing that prompted such a decision.
    Now sitting here today, we have probably at least 20 other 
posts that are under a serious threat environment as I speak to 
you. We are working with the other agencies in our government, 
some of whom are colocated with us, others of whom are nearby. 
We are constantly assessing. And sometimes we get it wrong, but 
it is rare that we get it wrong. This was one of those terrible 
tragic times when, you know, there was an assessment shared by 
the Ambassador, shared by others, that turned out not to take 
into account the militants attacking that night.
    So I can tell you there are, as you say, tripwires, but we 
are going to try to do is elevate the discussion and the 
decisionmaking so that there is not any doubt that everybody is 
on the same page, that we are not missing information, we are 
not husbanding resources, and thereby making less than optimal 
decisions. That is what we are going to try to institutionalize 
going forward.
    Senator Flake. Thank you.
    Senator Menendez. Senator Coons.
    Senator Coons. I want to thank Senator Menendez for 
chairing this critically important hearing and to thank you, 
Secretary Clinton, for testifying today. We deeply regretted 
you were unable to appear before due to your illness, and I am 
thrilled to see you have made a full recovery.
    I want to start by just thanking you for your remarkable 
leadership as Secretary of State. One of many stops in the 
million miles that you have traveled and the 112 countries you 
have visited was a stop we shared jointly on a trip to Liberia 
for the second inauguration of Ellen Sirleaf Johnson. And it 
gave me an opportunity as a freshman Senator to see up close 
your remarkable skills and stamina and your determination.
    Your leadership has helped restore America's credibility, 
build bridges with their international partners, and you have 
also built bridges here on the Hill where your leadership at 
State is respected on both sides of the aisle and has been 
widely praised. While your likely successor, Senator Kerry, has 
my full confidence, you will be deeply missed. You said in your 
opening statement you are determined to leave the State 
Department and our country safer, stronger, and more secure. 
And in my view, because of your leadership, they are.
    Today we continue the consideration of the recommendations 
of the Advisory Review Board, which found that security was, 
``grossly inadequate'' to deal with the attack that took place 
in Benghazi in September. The mistakes that were made are 
simply unacceptable, and I am pleased that the State Department 
has begun to promptly implement the Board's recommendations, 
thanks to your leadership.
    I know you agree that the massive security failures, such 
as those witnessed in Benghazi that cost the lives of four 
brave Americans, simply cannot happen again. And I look forward 
to working with my colleagues on this committee in a searching 
review of the resources needed and the State Department 
structure to ensure that we do better to protect our diplomats 
and other Americans who put their lives at risk each and every 
day.
    As chairman of the Africa Subcommittee, I am particularly 
pleased that you have drawn, for this committee today in your 
testimony, the links between this tragic incident in Benghazi, 
the recent terrorist incident in Algeria, and the unfolding 
challenges in Mali. I chaired a hearing on Mali on December 5, 
and I have been impressed with your engaged leadership of 
visits to Algeria, sort of raising the alarm about AQIM.
    And I welcome your testimony today on how you see the 
regional threat from AQIM, how you see the consequences of this 
recent incident in Algeria, and what role you think there is 
for the United States in both supporting the current actions by 
the French and the Malian military and the need for our ongoing 
insurance investment to restore democracy in Mali, to restore 
development in some positive prospects moving forward for the 
people of Mali, and how you think we can ensure that State and 
Defense are coordinating through AFRICOM in West and North 
Africa going forward.
    Secretary Clinton. Well, Senator, I appreciate greatly your 
sustained attention to Africa, and I think it is going to be 
viewed as quite prophetic because there will be, I believe, a 
continuing set of challenges. You mentioned some of them. But 
by no means, you know, we have got Boko Haram in Nigeria posing 
the threat of instability to one of the most important oil-
producing nations in the world, something very important to our 
country. We have got other unrest and challenges coming down 
the West Coast of Africa.
    But we also have a success story, at least a hoped-for 
beginning success story in Somalia. And what did the United 
States do there? You know, when I became Secretary of State, I 
recommitted American money to the AMICOM forces. We worked to 
train the Ugandans and the Burundis and others. We worked with 
the Kenyans when they went in. We worked with the Djiboutis.
    It took time. There were no shortcuts. But we had literally 
the boots of our American soldiers and the boots of American 
diplomats on the ground. I visited one of the training camps in 
Uganda, and what we have to do is recognize we are in for a 
long-term struggle here. And that means we have got to pay 
attention to places that historically we have not chosen to or 
had to.
    So I would hope that this committee can make that case to 
the rest of the Congress. We are now looking at, you know, 
troops coming from other neighboring African countries. We 
cannot just send them into Mali. They do not have training to 
do that. We are going to have to work with other partners to 
train them and equip them, and then to sustain them just like 
we did with the troops in Somalia.
    So, you know, 4 years ago al-Shabbab was one of the biggest 
threats not only to East Africa, but to the United States. We 
have a chance to really continue on a positive track there, but 
it did not happen by accident. It took American money, American 
know-how, American experience. And we have to make the decision 
we are going to do the same in North Africa as well.
    Senator Coons. Thank you, Madam Secretary. I certainly look 
forward to continuing to get your advice, direction, and 
encouragement as I try to work with my colleagues here to 
ensure the same sort of success going forward in West Africa 
that we have recently enjoyed in East Africa. Thank you for 
your testimony.
    Senator Menendez. Senator McCain.
    Senator McCain. Thank you, Madam Secretary, and it is 
wonderful to see you in good health and as combative as ever. 
We thank you for your outstanding and dedicated service to this 
Nation, and we are proud of you. All over the world where I 
travel, you are viewed with admiration and respect.
    Four months or months after the Benghazi tragedy--it is a 
tragedy when we lose four brave Americans--there are many 
questions that are unanswered. And the answers frankly that you 
have given this morning are not satisfactory to me. Were you 
and the President made aware of the classified cable from Chris 
Stevens that said the United States consulate in Benghazi could 
not survive a sustained assault? Numerous warnings, including 
personally to me, about the security were unanswered or 
unaddressed. It took a CNN reporter looking through the 
consulate to find Chris Stevens' last warning.
    When were you made aware of that cable? When were you made 
aware of the attack on the British Ambassador, and the 
assassination attempts, and the closing of the consulate there? 
And what actions were taken? What was the President's 
activities during that 7-hour period?
    On the anniversary on the worst attack in American history, 
September 11, we did not have Department of Defense forces 
available for 7 hours. Two brave Americans died in the last 
hour. With all these warnings, all these things took place. We 
did not have a single Department of Defense asset apparently 
available to come to the rescue.
    I categorically reject your answer to Senator Johnson 
about, well, we did not ask these survivors who had flown to 
Ramstein the next day, that this was not a spontaneous 
demonstration. To say that it was because an investigation was 
going on.
    The American people deserve to know answers, and they 
certainly do not deserve false answers. And the answers that 
were given the American people on September 15 by the 
Ambassador of the United Nations were false, in fact, 
contradicted by the classified information which was kept out 
of the Secretary of the United Nations report, who, by the way, 
in the President's words, had nothing to do with Benghazi, 
which questions why she was sent out to start with.
    Why is it that the administration still refuses to provide 
the full text of e-mails regarding the deletion of references 
to al-Qaeda and terrorism in their talking points? Why do we 
care? Because if the classified information had been included, 
it gives an entirely different version of events to the 
American people.
    Going to the American people and tell them what happened, 
then you ought to have your facts straight, including the 
Ambassador said, ``Al-Qaeda is decimated, and our consulates 
and embassies are secure.'' So here we are 4 months later, and 
we still do not have the basic information.
    Now if you want to go out and tell the American people what 
happened, you should at least have interviewed the people who 
were there instead of saying, no, we could not talk to them 
because an FBI investigation was going on. And by the way, as I 
said at the time, I just happened to be on one of those talk 
shows, people do not bring RPGs and mortars to spontaneous 
demonstrations. That is a fundamental.
    And of course, the President continued to say days 
afterward--September the 12th, he made a reference to an act of 
terrorist. September 12 on ``60 Minutes,'' too early to know. 
September 20 on ``Univision,'' we are still doing an 
investigation. September 24 on ``The View,'' we are still doing 
an investigation. The President of the United States as late as 
September 24, 2 weeks later, did not acknowledge that this was 
an act of terror conducted by people who were at least somehow 
connected to al-Qaeda.
    Finally, Madam Secretary, I strongly disagree with your 
depiction of what we did after Gaddafi fell. We did not provide 
the security that was needed. We did not help them with border 
security. We did not give them the kind of assistance that 
would have been necessary to help dismantle these militias that 
still to this day remain a challenge to democracy in Libya and 
freedom.
    You knew Chris Stevens very well. I knew him very well. I 
knew him on July 7 when I went to Libya to observe the 
elections, and at that time on July 7 he expressed to me his 
deep and grave concerns about security, particularly in 
Benghazi. And he continued to communicate with the State 
Department, and I do not know who else was privy to those 
cables, of his deep concern about the security there and the 
need for additional assistance. And I will argue with facts 
that after that event took place, after the fall of Gaddafi, 
the, ``soft footprint'' was partially, to some degree, 
responsible for the tragedy that took place.
    The American people and the families of these four brave 
Americans still have not gotten the answers that they deserve. 
I hope that they will get them.
    Secretary Clinton. Well, Senator, I understand your very 
strong feelings. You knew Chris. You were a friend of Chris. 
You were one of the staunchest supporters of the efforts to 
dislodge Gaddafi 
and try to give the Libyan people a chance. And we just have a 
disagreement. We have a disagreement about what did happen 
and when it happened with respect to explaining the sequence of 
events.
    We did get to talk to the DS agents when they got back to 
this country. We did so. It was not before September 15. We had 
no access to the surveillance cameras for weeks, which helped 
to answer a number of questions.
    But with respect to helping the Libyans, and that also goes 
to the question Senator Rubio asked, we will provide a list of 
everything we were doing and were attempting to do. But I will 
also tell you that since March 2011, congressional holds have 
been placed on programs for many months for aid to Libya. We 
have had frequent congressional complaints--why are we doing 
anything for Libya? It is a wealthy country. It has oil. 
Disagreement from some sources that we should never have been 
part of any U.N. mission in Libya. Currently the House has 
holds on bilateral security assistance, on other kinds of 
support for antiterrorism assistance.
    So we got to get our act together between the 
administration and the Congress. If this is a priority and if 
we are serious about trying to help this government stand up 
security and deal with what is a very dangerous environment 
from east to west, then we have to work together.
    So I hope that we can have the kind of discussion where we 
can agree on certain approaches that will make a difference. 
And again, I would urge that you look and read both the 
classified and unclassified versions of the ARB that tries to 
deal with the very questions that you and Senator Johnson are 
raising--the timing of it and the like.
    But I also hope we are looking forward because right now 
Libya is still dangerous. It is still in a very unstable 
statute. And whatever we can do for them, we at least ought to 
agree we need to do and get out there and start delivering.
    Senator McCain. Thank you, Madam Secretary. Thank you, Mr. 
Chairman.
    Senator Menendez. Madam Secretary, I want to honor our 
commitment to keep you within a certain timeframe, knowing you 
have to also go before the House. I also want to allow every 
member to ask a question. I appreciate your very thorough and 
thoughtful answers, but, to some degree, you will dictate your 
own timeframe.
    With that, Senator Durbin.
    Senator Durbin. Madam Secretary, thank you for being here. 
Excuse me. It was a little more than 4 years ago that a number 
of your colleagues, myself included, encouraged you to take on 
this responsibility, believing you would have a profound impact 
on the world and on the diplomacy of the United States; and you 
have. Thank you so much for all you have done.
    I also want to say a word on behalf of Ambassador Rice, an 
extraordinary individual who has served this country well. I 
think some of the criticism that was heaped on her was unfair 
and did not reflect the fact that she was reporting the best 
information she had available at the time. And as you have 
said, more information became available, and it was dutifully 
reported.
    I do want to make one point for the record here about 
whether the American people are told everything right away in 
the right way so that they can be fully informed. And I would 
like to refer to five words for them to reflect on: Iraqi 
weapons of mass destruction. We were told by every level of 
government here there were Iraqi weapons of mass destruction 
that justified a war, the invasion of the United States. We are 
still searching for those weapons. They did not exist. 
Thousands of Americans lost their lives. We could have a 
hearing on that if you would like.
    The point I am trying to get to is, two extraordinarily 
talented individuals, Admiral Mullen, and maybe one of the best 
diplomats of our time, Ambassador Pickering, did a thorough 
review here, found shortcomings in our protection of our people 
overseas and reported them honestly. You not only initiated 
that review, you accepted its findings in their totality--no 
cover up. An attempt to be totally honest to make sure a 
tragedy like this never occurs again.
    The second point I would like to make is this. Some on the 
committee have already criticized the notion that this is about 
money. They might argue you cannot solve a problem by throwing 
money at it. Madam Secretary, you cannot solve a problem by 
throwing money at it unless the problem is lack of money.
    And what I understand you to testify is, you have asked 
this Congress for the authority to transfer existing funds to 
protect ambassadors and diplomatic personnel around the world, 
and you have been refused by the House of Representatives. They 
will not give you the authority to even take existing funds. If 
I am not mistaken in a few weeks, your Department is going to 
face sequestration, and we not only will not have additional 
funds, we will cut some $129 million when it comes to 
construction of facilities to protect people who represent the 
United States overseas, and cut money for the individuals 
necessary to protect those same diplomats.
    So I would like you to comment how can we keep our 
commitment to be a leader in the world in the area of 
diplomacy, in state craft, to avoid the necessity of war if we 
do not give the most basic resources to your Department, which 
commands, as I understand it, about 1\1/2\ percent of the 
Federal budget.
    Secretary Clinton. Actually it is less than one, but let us 
not quibble.
    Look, I am well aware that there are deficiencies and 
inadequacies in the Department. I went about doing what I could 
in the 4 years I had through the QDDR process, through creating 
some additional incentives and changes in culture to try to 
assist everybody in the State Department and USAID to do as 
much as they could with whatever they had, you know, because we 
were never going to reach parity with the Defense Department. 
We were always going to be one-twelfth or less of the budget. 
That was fine, but to do what we can.
    But at the same time, we have asked for the funds we think 
we need to be able to fulfill the mission you have described, 
Senator Durbin. And we need the help of this committee. I mean, 
I am one who believes that we have to both walk and chew gum at 
the same time. We have to deal with our own economy and our 
fiscal situation. That is a given because that is the source of 
our strength and our capacity. But we also have to be smart 
about making the right investments in diplomacy and development 
to try to solve problems and prevent them.
    So, you know, I have outlined what should be a no-brainer. 
Let us have the permission to take money we already have--we 
are not asking for more money--and put it to work where the ARB 
told us to do. And then let us look at the budget as we move 
forward.
    Now sequestration will be very damaging to the State 
Department and USAID if it does come to pass because it throws 
the baby out with the bath. Are there programs that we could 
reduce, make more efficient? Yes, that is part of what I have 
been trying to do is to push that forward, and that what is the 
QDDR process was about. But there are also a lot of very 
essential programs, first and foremost, the security of our 
personnel in dangerous places, that we cannot afford to cut 
more of.
    And so I hope we get the transfer authority and then have a 
sensible budget discussion going forward.
    Senator Durbin. Thank you.
    Senator Menendez. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Madam Secretary, 
I want to thank you for your incredible commitment to this 
country as First Lady, as a member of this body, as well as 
Secretary of State. And as a doctor, I will tell you I have 
seen you work yourself to exhaustion not for your own benefit, 
but for the benefit of the people of this country, and the 
country is grateful for that.
    Secretary Clinton. Thank you.
    Senator Barrasso. I, like you, agree that we need to make 
sure that something like this never happens again. And I have 
kind of looked at it like the Challenger explosion where we 
lost those seven astronauts because of an O-ring and problems 
there. And we said, well, we did not see it coming, but we 
could have seen it coming and should have seen it coming.
    As you said, you never saw the security request. Vice 
President Biden in the Presidential debate said no one told us. 
I mean, the concern is that we should have been seeing these 
sorts of things. There were the attacks on the British 
Ambassador. There were the attacks on the Red Cross that they 
pulled out of Benghazi. There were attacks on the consulate 
itself. And yet we had no evacuation plan established in spite 
of the fact that months earlier in Libya we had, I think, had 
to get an Italian ferryboat to be able to get people out who 
were in danger who were diplomats at the time. So those are the 
concerns.
    We want to make sure that there is security for our 
ambassadors, which gets to the issue of we talk about what 
happened on the talk shows and they said the best information 
was what was best available at the time. The American people 
heard ``we had a substantial security presence.'' They heard 
``we obviously did have a strong security presence.'' They 
heard ``obviously there was a significant security presence.'' 
And I just believe that that was not the case.
    And I would ask you today if you believe that we had a 
significant, substantial, and strong security presence in Libya 
at that time, because we want that for all of our ambassadors.
    Secretary Clinton. Right. Well, Senator, we had a security 
presence that was mutually reinforced with the annex. We had 
had, as you rightly point out and others before you, previous 
incidents, not only against our compound, but against the 
British, the Red Cross, and others. And what we have accepted 
from the ARB recommendation is that even though there was a 
back and forth in the cables and discussions, you need three DS 
agents or do you need five. We had five there, but we had an 
unprecedented attack. As one of the former RSOs, regional 
security officers, testified, an attack that truly was not 
expected, even though on that night we had the requisite number 
of DS agents.
    So, you know, we can get mired in the back and forth, but I 
believe we will be doing more to help prevent future tragedies 
and attacks if we take the ARB recommendations, because after 
all, they had no stake in this debate one way or the other. 
They just wanted to look at the facts, which they did an 
excellent job doing, and then tell all of us what we needed to 
do. And that is what I think our highest responsibility is.
    Senator Barrasso. Thank you, Madam Secretary. You know, 
thinking about future attacks and trying to prevent those, on 
September 12, the President vowed to, ``bring to justice the 
killers who attacked our people in Benghazi.'' So we asked the 
question--and Senator Risch talked about it--Were the people 
that perpetrated the recent attacks in Algeria? Were they part 
of this or were they made perhaps emboldened because no one has 
yet paid a penalty for the attack on our facility in Benghazi? 
And how can we make sure that people are actually brought to 
justice there?
    Secretary Clinton. Well, I believe that--well, I know that 
the FBI has been briefing some committees. I assume members or 
staff of this committee are included--I do not know that, but I 
would assume--about the progress of their investigation. I got 
the most recent update from the Director just a few days ago 
when he returned from North Africa. They are following some 
very promising leads and putting together cases. They would 
have to speak to you directly about that in a classified 
setting.
    But I think what they are trying to determine is how best 
to respond. And I think what the President clearly said is we 
will respond, and we will bring those to justice. And I do not 
think anybody should doubt this President at his word. We have 
some very good examples that it may take time, but he does not 
in any way divert attention from the goal of bringing them to 
justice.
    Senator Barrasso. Thank you, Madam Secretary. The President 
also said al-Qaeda has been decimated. And in light of the 
recent terrorist activities that we continue to see in North 
Africa, around the world, would you characterize that al-Qaeda 
has been decimated?
    Secretary Clinton. Well, core al-Qaeda certainly has been. 
I think you would hear the same from the intelligence community 
or DOD. The work that has been done in Afghanistan and the 
borders areas between Afghanistan and Pakistan certainly has 
taken out a whole cadre of leadership.
    What we are seeing now are people who have migrated back to 
other parts of the world where they came from primarily, who 
are, in effect, affiliates. Part of the jihadist syndicate, 
some of them, like al-Qaeda and the Islamic Maghreb, use that 
name. Others use different names.
    But the fact is they are terrorists. They are extremists. 
They have designs on overthrowing existing governments, even 
these new Islamist governments, of controlling territory. So 
although there has been the decimation of core al-Qaeda in the 
Afghanistan/Pakistan region, we do have to contend with the 
wannabes and the affiliates going forward.
    Senator Barrasso. Thank you, Madam Secretary.
    Senator Menendez. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and thank you, 
Madam Secretary, for being here. And it is great to see you 
today. You have been, I think, a real and dedicated public 
servant for this country. And your travels around the world, as 
many here have talked about, and the million miles that you 
have put on, and all the countries you visited. And I think you 
have been to many countries where they have never had a 
Secretary of State. And I have seen firsthand when I have been 
to many of these countries the difference it makes to have you 
there on the ground. So I, first of all, just wanted to thank 
you for that, and I know it does take a toll. But you are 
incredibly dedicated to that.
    Second, it is great to see you here in good health----
    Secretary Clinton. Thank you.
    Senator Udall [continuing]. Smiling and engaging with all 
of us. And I want to add to the list people--Senators going 
down the line talked about some of your accomplishments. I know 
previously I talked to you about cookstoves, which I know has 
been one of your initiatives. And it is once again an example 
of picking something where people around the world who are 
living on a dollar or two a day, if you put in a technology, 
like an up-to-dated cookstove, you can make a big difference on 
their health and the health of their children. And you can make 
a big difference on the environment. So I would add that to the 
list that has been given here today of very thoughtful 
policymaking on your part.
    Now, one of the findings that the board made in its report 
is that--and I am quoting here--``The total elimination of risk 
is a nonstarter for U.S. diplomacy given the need for the U.S. 
Government to be present in places where stability and security 
are often most profoundly lacking, and host government support 
is sometimes minimal to nonexistent.''
    And this report really, as you know, Madam Secretary, 
underscores the difficulty in finding the right balance between 
engagement and security. And I fully support, as you have asked 
here and you have made the point to our committee, the idea 
that we should reprogram this $1.4 billion, get our act 
together, and respond to the recommendations.
    But my question here revolves around these high-risk posts. 
I think the term you have used is having 20 of them. Is this 
how many there are, how many high-risk posts we have around the 
world?
    Secretary Clinton. Well, it is a sliding scale.
    Senator Udall. Yes.
    Secretary Clinton. There is very high and there is high. I 
mean, it is a constantly evolving threat environment.
    Senator Udall. Can you give us a little bit of a range? I 
mean, very high.
    Secretary Clinton. Yes. You know, I would like to give you 
that in a classified document because I do not think it helps 
us to point out the ones that we think are most at risk, and 
then the ones that would be perhaps in a secondary category.
    But I think it is fair to say, Senator, we operate in 
Pakistan. We operate in Iraq, in Afghan, in Yemen. We operate 
in places where we know that our facilities are being 
surveilled for potential attacks, where we have a steady intel 
stream of plotting against us. We know that. And we make the 
decision, which is a difficult decision, as to whether or not 
that mission continues.
    And I have to say that we really rely on our security 
professionals to implement the protocols and the procedures. 
And I have to say they do a tremendous job. The vast majority 
of the cases--I could give you a long list of attacks averted, 
of assassinations stopped, of the kinds of daily efforts that 
our diplomatic security professionals are engaged in.
    So I have a lot of confidence in them, but we are going to 
do what we can to make sure that they get the support within 
our bureaucracy that they deserve out on the ground protecting 
our diplomats.
    Senator Udall. And now I want to obey the time limits here 
because you need to do--move over to the House, and others want 
to question. But maybe you could answer this one for the 
record. Does it make sense that in some of these high-risk 
areas that we consolidate those particular areas with more 
secure areas, and then be able to be in a situation where our 
personnel would be safer? And I am not asking you really to 
answer that now. My time has run out, and I want others to be 
able to question. But if you could give us an answer for the 
record, that would be great.
    [The written information supplied by the State Department 
follows:]

    Presently the Bureau of Diplomatic Security (DS), in consultation 
with other agencies, assigns threat levels to each post. Six threat 
categories inform the Security Environment Threat List (SETL): 
terrorism, political violence, residential crime, nonresidential crime, 
human intelligence, and technical threat. A rating is then assigned for 
each category based on a four-level scale: Critical, High, Medium, and 
Low.
    The SETL assists DS management in prioritizing overseas security 
programs and ensures that effective allocation of resources is applied 
to meet Overseas Security Policy Board standards based on overall 
threat levels. The Under Secretary for Management will be pleased to 
brief you on the SETL, at your convenience, in an appropriate setting.

    Secretary Clinton. I will do that, and I will say, Senator, 
one of the recommendations out of the East Africa ARB was to do 
that, and that is done again in the vast majority of cases 
wherever it is possible to do what is called colocate. But we 
are taking a look at that as well to see what more we can do.
    [The written information supplied by the State Department 
follows:]

    The Secure Embassy Construction and Counterterrorism Act of 1999 
(SECCA) requires certain collocation waivers, and such waivers 
currently exist for all facilities not located on compounds constructed 
since the law was enacted in 1999. A database of these locations is 
maintained by the Bureau of Diplomatic Security.
    By February 28, 2013, the Bureau of Diplomatic Security and the 
Bureau of Overseas Buildings Operations will have an established and 
cross-referenced list of noncollocated facilities that predate the 
SECCA.
    By March 31, 2013, the Bureau of Diplomatic Security and the Bureau 
of Overseas Buildings Operations will develop two action plans: (1) a 
prioritized list of facilities that will be required to move forward 
with collocation; and (2) a list of facilities that are either unable 
to collocate or legislatively authorized not to be collocated. Any 
facilities in this second group that lack a waiver will be required to 
submit requests for collocation waivers.

    Senator Udall. Thank you, Madam Secretary.
    Senator Menendez. Senator Paul.
    Senator Paul. Thank you for appearing, Secretary Clinton, 
and I am glad to see your health is improving.
    One of the things that disappointed me most about the 
original 9/11 was no one was fired. We spent trillions of 
dollars, but there were a lot of human errors. These are 
judgment errors, and the people who make judgment errors need 
to be replaced, fired, and no longer in a position of making 
these judgment calls.
    So we have a review board. The review board finds 64 
different things we can change. A lot of them are common sense 
and should be done, but the question is, it is a failure of 
leadership that they were not done in advance and four lives 
were lost because of this.
    I am glad that you are accepting responsibility. I think 
that ultimately with your leaving, you accept the culpability 
for the worst tragedy since 9/11, and I really mean that. Had I 
been President at the time and I found that you did not read 
the cables from Benghazi, you did not read the cables from 
Ambassador Stevens, I would have relieved you of your post. I 
think it is inexcusable.
    The thing is, is that, you know, we can understand that you 
are not reading every cable. I can understand that maybe you 
are not aware of the cable from the Ambassador in Vienna that 
asked for $100,000 for an electrical charging station. I can 
understand that maybe you are not aware that your Department 
spent $100,000 on three comedians who went to India on a 
promotional tour called ``Make Chai Not War.''
    But I think you might be able to understand and might be 
aware of the $80 million spent on a consulate in Mazar-e-Sharif 
that will never be built. I think it is inexcusable that you 
did not know about this and that you did not read these cables.
    I would think by anybody's estimation, Libya has to have 
been one of the hottest of hot spots around the world. Not to 
know of the request for security really I think cost these 
people their lives. Their lives could have been saved had 
someone been more available, had someone been aware of these 
things, more on top of the job.
    And the thing is, is I do not suspect you of bad motives. 
The review board said, well, these people were not willfully 
negligent. I do not think you were willful. I do not suspect 
your motives of wanting to serve your country.
    But it was a failure of leadership not to be involved. It 
was a failure of leadership not to know these things.
    And so, I think it is good that you are accepting 
responsibility because no one else is. And this is--there is a 
certain amount of culpability to the worst tragedy since 9/11, 
and I am glad you are accepting this.
    Now my question is, Is the United States involved with any 
procuring of weapons, transfer of weapons, buying, selling, 
anyhow transferring weapons to Turkey out of Libya?
    Secretary Clinton. To Turkey? I will have to take that 
question for the record. Nobody has ever raised that with me. I 
don't----
    Senator Paul. It has been in news reports that ships have 
been leaving from Libya and that they may have weapons. And 
what I would like to know is the annex that was close by, were 
they involved with procuring, buying, selling, obtaining 
weapons, and were any of these weapons being transferred to 
other countries? Any countries, Turkey included?
    Secretary Clinton. Well, Senator, you will have to direct 
that question to the agency that ran the annex. I will see what 
information is available and----
    Senator Paul. You are saying you do not know?
    Secretary Clinton. I do not know. I do not have any 
information on that. And you know, with respect to personnel, 
Senator, you know, first, that is why we have independent 
people who review the situation as we did with the Pickering 
and Mullen ARB, and all four individuals identified in the ARB 
have been removed from their jobs. Second, they have been 
placed on administrative leave while we step through the 
personnel process to determine the next steps.
    [The written information supplied by the State Department 
follows:]

    The United States is not involved with any transfer of weapons from 
Libya to Turkey.

    Secretary Clinton. Third, both Ambassador Pickering and 
Admiral Mullen specifically highlighted the reason why this is 
complicated because under Federal statute and regulations, 
unsatisfactory leadership is not grounds for finding a breach 
of duty. The ARB did not find these four individuals breached 
their duty. So I have submitted legislation to this committee, 
to the Congress, to fix this problem so future ARBs will not 
face this situation.
    Senator Paul. But here is the problem. The review board has 
all these recommendations, but there is one thing they failed 
to address and I think you have failed to address, and it sets 
us up for another tragedy like this. They should have never 
been sent in there without a military guard.
    This should have been an embassy like in Baghdad in a war 
zone, and it should have been under military guard, significant 
military guard, Defense Department command. I do not think the 
State Department is capable of being in a war zone and 
protecting these people. I still do not think that.
    I think another tragedy could happen. I think another 
tragedy could happen in another war zone around the world. I 
think someone needs to make an executive decision, someone 
needs to take leadership, and with that leadership should be 
you should not send them in with no Marines. You should not 
send them in with Marines who are to guard records, not people. 
You should not send them in with the same kind of Ambassador or 
Embassy staff that you have in Paris.
    I think that is inexcusable.
    Secretary Clinton. Well, Senator, the reason I am here 
today is to answer questions the best I can. I am the Secretary 
of State, and the ARB made very clear that the level of 
responsibility for the failures that they outlined was set at 
the Assistant Secretary level and below.
    The administration has sent officials to the Hill more than 
30 times. We have given as much information--we have been as 
transparent as we can. Obviously, we will continue to brief you 
and others, to answer any and all questions that you have about 
going forward.
    The reason we put into effect an Accountability Review 
Board is to take it out of the heat of politics and 
partisanship and accusations and to put it in the hands of 
people who have no stake in the outcome. The reason I said make 
it open, tell the world, is because I believe in transparency. 
I believe in taking responsibility, and I have done so.
    And I hope that we are going to be able to see a good 
working relationship between the State Department and the 
committee going forward.
    Senator Menendez. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Secretary Clinton, I approached this hearing with some 
degree of sadness. It is my first and your last. But I am so 
appreciative of your service. You have done such credit to this 
Nation, and we will be sorry to see you go. We know that you 
will continue to give us good counsel and good advice in the 
coming years.
    I think if some people on this committee want to call the 
tragedy in Benghazi the worst since 9/11, it misunderstands the 
nature of 4,000-plus Americans lost over 10 years of war in 
Iraq fought under false pretenses. It was fought under false 
pretenses, but it was also fought, I think, because we had a 
misunderstanding of what we could do and what we could manage 
in that region--what was under our control.
    And I guess my question to you, Secretary Clinton, is about 
what our expectations are going forward in North Africa. And I 
think you referenced this in your opening remarks about 
actually what is under our control.
    One of the criticisms in the review board was that we did 
not have a full understanding of this complicated set of 
allegiances between jihadist groups that are shifting on an 
almost daily basis. And I worry sometimes that when we do this 
retrospective hand-wringing over a tragedy like this that we 
sometimes give the impression to the American people that we 
can know all and see all and control all in a region where we 
certainly are just beginning to stand up the kind of presence 
that we may ultimately need and want.
    And so, I guess I present this as an open-ended question to 
you: As we move forward, and especially for new members of this 
committee who are probably going to be spending a lot more time 
on Africa and North Africa than this committee has ever spent 
before, what are the expectations that we should set for the 
American public as to what we can control, what we can know, 
and potentially what changes on the diplomatic side we need to 
make in order to have a more solid footprint and relationship 
with neighbors there who may be willing to help us when it 
comes to intelligence and intervention with this very 
complicated landscape of jihadist groups?
    Secretary Clinton. Well, Senator, you are going to make an 
excellent member of this committee based on that question. 
Because it is a multipart question, but it raises really the 
heart of the challenge we face.
    We are in a new reality. We are trying to make sense of 
changes that nobody had predicted, but which we are going to 
have to live with. I cannot do justice in the time I have left 
here to the really important issues that you have highlighted, 
but I think, first and foremost, let us be honest. Let us be 
honest with ourselves. Let us avoid turning everything into a 
political football.
    Let us instead try to just say, look, this is 
unprecedented. We do not know what is going to happen in this 
new revolutionary environment across North Africa and the 
Middle East, but let us see what lessons we can learn from what 
worked in the past, see what is applicable, and then let us 
bring people together who will really have the kind of open 
discussion that used to be the hallmark of this committee and 
of the Senate.
    I mean, people used to have hearings where it was not to 
just have administration officials come up and ask the 
questions and go on from there, but really to delve into what 
works and what does not work. Bring in outside experts. Let 
them debate in front of you. Try to figure out what the best 
information going forward is.
    I mean, over the last weeks, I have pulled writings from, 
you know, what you would call very conservative and very 
liberal commentators who kind of reach the same conclusion 
about what we should be doing in this region. We have to 
approach it with humility. But we have got some real assets if 
we deploy them right and helping to rebuild security is 
essential.
    We did it in Colombia. It took a decade. We did it directly 
in Colombia. We did it as a partner with others in Somalia, and 
there are a lot of other examples all the way across the world. 
Let us be smart and learn from what we have done in the past 
and see what can be transferred into the present and the 
future, and let us be honest in trying to assess it to the best 
of our abilities.
    And I think with the new chairman and the new ranking 
member, from my conversations with both of them, I think this 
committee could play such an essential role in trying to answer 
your questions and put forth a policy that would not go 
lurching from administration to administration, but would be a 
steady one like we did with Colombia, like we did in the cold 
war.
    Let us be smart about this. We have more assets than 
anybody in the world, but I think we have gotten a little bit 
off track in trying to figure out how best to utilize them.
    Senator Murphy. I hope this committee takes up those wise 
recommendations. Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    Senator Kaine.
    Senator Kaine. Madam Secretary, I also regret that our 
overlap will be so brief. I think the country is at its 
strongest when we balance military strength with diplomatic 
strength, economic strength, and strength of our moral example, 
and I cannot think of a person that exemplifies that balance in 
a public service career as well as you do, and I appreciate 
that.
    Secretary Clinton. Thank you, Senator.
    Senator Kaine. A few questions, sort of detailed questions 
that trouble me. In the unclassified version of the ARB, there 
is a comment, a brief one. In December 2011, the Under 
Secretary for Management approved a 1-year continuation of the 
U.S. Special Mission in Benghazi, which was never a consulate 
and never formally notified to the Libyan Government.
    Why wasn't this special mission notified to the Libyan 
Government? Is that a common practice? Did the lack of the 
notification have any connection with the weak Libyan 
governmental response on the 11th, and are there any changes in 
connection with the ARB recommendations to the idea of special 
missions that are not notified formally to their host 
governments?
    Secretary Clinton. Well, Senator, congratulations to you as 
well. And welcome to this committee.
    The United States notified to the Libyan Government the 
specific names of people who were serving in Libya in both 
Tripoli and in Benghazi. That, in no way, affected the legal 
obligation of Libya under the Vienna Convention. The problem, 
as I said, was not their willingness. It was their capacity.
    And as you know, from the first time Chris Stevens arrived 
before the fall of Gaddafi, he relied not on any Libyan 
governmental security, but on the February 17th Brigade, and 
then we supplemented that after Gaddafi's fall with DS agents, 
with private security contractors.
    So there was no affect on anything from the Libyan 
Government that was related to that. However, we do think that 
needs to be looked at going forward. The ARB made a very 
important point that the so-called temporary nature of the 
mission did prove to be confusing to people down the chain 
responsible for reading those cables.
    We get about, I do not know, how many millions of cables do 
we get? And I have to confess I do not read all the cables that 
come into the State Department. That is why we have a huge 
workforce of people who are given responsibility and expected 
to carry forward that responsibility.
    And I think designating it as temporary, in the ARB's 
findings, did cause an extra level of uncertainty, to some 
extent. You know, as the chairman said at the very beginning, 
quoting from the ARB, there has been an acculturation in the 
State Department to husband resources, to try to be as careful 
in spending money as possible. And then I think adding to that 
the fact that it was ``temporary'' probably did lead to some of 
the confusion that we later saw played out in the cables, but 
not the status of it for the Libyan Government.
    Senator Kaine. How common is it for us to rely on local 
nongovernmental security, as was the case with the Blue 
Mountain and February 17 Brigades in Benghazi?
    Secretary Clinton. Well, it is very common. We employ 
privately employed security guards in a very high number of our 
posts around the world. I mean, if you go to the Embassy in 
Baghdad or you go to the Embassy in Kabul or really many of our 
high-threat places, you will see private security guards.
    Now, because of problems with private security guard 
contracts that came to light in Iraq, where, as you remember, 
there were a lot of difficulties--these were private security 
guards who were protecting diplomats and development experts, 
other civilians--many countries have put very stringent 
requirements on private security guards.
    And in fact, in Libya, the transitional government 
prohibited private security guards, which is why there was 
this--unless they approved them. So they approved this Blue 
Mountain company that was a joint Libyan-British organization. 
But we use private security guards in many places because, as I 
said, historically, Marine guards do not protect personnel. 
Their job is to really take care of classified material and to 
destroy it, if necessary.
    We had no classified material at Benghazi. And it was 
unfortunate that we evacuated all the Americans and 
unclassified material was left behind, but we had no classified 
material. So there is going to be an effort because of this 
work that I have directed to really sort this out so that you 
know, that everybody knows exactly what the protocols and the 
rules are, and we act accordingly.
    Senator Kaine. Thank you, Madam Secretary, Mr. Chair.
    Senator Menendez. Thank you.
    Madam Secretary, thank you for your thorough, thoughtful, 
and forthright answers. It is what we have become accustomed to 
from you.
    I understand we are going to be able to welcome you one 
more time when you come tomorrow to introduce Senator Kerry to 
the committee. We look forward to welcoming you there as well.
    I think that there are several takeaways here that are 
incredibly important. One is that we have to look at the 
totality of the threat environment versus just looking for a 
specific credible threat when we are thinking about the 
protection of our Foreign Service personnel, and I see that we 
are moving in that direction.
    The other one is changing the State Department to have 
clear lines of authority and responsibility for security 
matters instead of silos looking at a horizontal level. And I 
understand that is under way.
    A lot has been said about resources here. Secretary Gates 
used to famously argue that there are more people in military 
bands than in the entire Foreign Service. It seems to me that, 
surely, we can find the funds to protect our diplomats who 
serve on the front lines. I am concerned when the ARB says that 
the State Department has been engaged for years in a struggle 
to obtain the resources necessary to carry out its work which 
has conditioned the thinking of some in the State Department 
that it is imperative for the State Department to be mission 
driven rather than resource constrained, particularly in 
increasingly risky parts of the world.
    So I look forward to immediately working with the ranking 
member to reach out to Chairman Royce to get that transfer 
authority within the existing budget. It is not about 
additional money. It is about taking money that has already 
been appropriated so that you have the ability to start 
working, and the next Secretary has the ability to start 
working to protect our people as robustly as we can. A failure 
to do so is going to be a poor judgment call on the part of 
this Congress, if we cannot get, at a minimum, the transfer 
authority.
    Finally, I know a lot has been made about what was said and 
what was not said. I think that there are lessons to be learned 
there as well, in our drive to produce information about a 
tragedy as quickly as possible, as we should. But I think what 
we know and what we do not know is equally as important, and 
maybe the admonition that we should know before we speak is 
incredibly important. That would have been incredibly important 
when we were told that there were weapons of mass destruction 
in Iraq.
    As someone who voted against the Iraq war in the House and 
did not believe, based upon what I was able to review, that 
there was adequate information, when we talk about tragedies--
and certainly, Benghazi was a tragedy--when we lost 4,486 
American lives in Iraq, had thousands who have been injured and 
had their lives changed forever, and the increased influence of 
Iran, I think from my own perspective, that was truly a 
tragedy.
    And so, there are lessons to be learned here. There will be 
questions for the committee to ask for the record by the close 
of business tomorrow, since we do not expect you to be much 
longer in your position.
    The committee thanks you for your appearance here today and 
your service. Senator Corker, a final word?
    Senator Corker. I want to actually add three more 
takeaways, and I know they are based not only on testimony here 
today, but conversations we have had over the last several 
days.
    You alluded to the over-the-transom issues that the State 
Department and the White House deal with on a constant basis. I 
think this committee will be useful and can be useful in 
setting a long-term exploration of what our national interest 
is so that we look at this over a longer term context. I know 
you alluded to that in your testimony.
    Secondly, I know we have talked extensively about the 
importance of having a full authorization. That actually would 
be very helpful to people like you who come in for a very short 
period of time for us to help set those priorities. That would 
be something you would embrace and something this committee has 
never done since I have been here.
    And thirdly, that we live in a world now where we know that 

al-Qaeda is going to be a threat in North Africa for years to 
come, and we need to have policies that realize that and 
address it.
    I, too, thank you for your service. I know a lot of nice 
things will be said again tomorrow when you come here, but 
thank you so much. I appreciate it.
    Senator Menendez. On that bipartisan note and with the 
thanks of the committee, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator Robert Menendez

    Question. War of Terror: Secretary Clinton, I appreciated your 
comment in the letter you sent us in December, that we cannot just play 
better defense, but must do much better on offense as well. We have had 
great success in degrading terrorism networks globally and specifically 
the core al-Qaeda leadership; however, there has been a growth in 
offshoot and extremists networks, particularly in north Africa as a 
result of political turmoil on Libya and Mali. These threats make 
terrorism cooperation and coordination in north Africa and in the Gulf 
of primary importance.

  <diamond> Is the war on terrorism shifting grounds as extremists 
        splinter into small, more regional groups?
  <diamond> What is our offensive strategy for countering extremists 
        and al-Qaeda splinter groups?

    Answer. Denying al-Qaeda and its affiliates safe havens will 
continue to be a challenge, and we know that terrorists enjoy safe 
haven in sparsely populated territories in Africa. While we have had 
much success in combating al-Qaeda and its primary affiliates, the 
threat has become more widely dispersed. We will continue to work to 
disrupt, dismantle, and defeat extremists in this evolving landscape 
through a range of efforts, especially those enabling partners around 
the world to counter the threat within their own borders. Denying safe 
havens, whether individuals in such areas enjoy membership in al-Qaeda, 
or like-minded or associated smaller groups, plays a major role in 
undermining terrorists' capacity to operate effectively and forms a key 
element of U.S. counterterrorism strategy. Through technical 
assistance, training, and the provision of equipment, we aim to improve 
the capacities of partner nations. We also work to deny terrorist 
groups continuing flows of recruits. The challenges we face are 
considerable, but we believe that applying a comprehensive set of tools 
is the best approach for achieving our counterterrorism objectives 
against violent extremist groups.
    A core element of our approach to the shifting terrorism networks 
of today is a strategy that focuses not only on strengthening the 
military, intelligence, and civilian capabilities of our partners, but 
also one that supports their efforts to address the political, 
economic, and social drivers of violent extremism. The U.S. 
counterterrorism approach in west and north Africa, for example, has 
focused on encouraging and enabling local ownership over 
counterterrorism efforts in the region and building sustainable 
capabilities that will ultimately deny terrorists the ability to 
operate with impunity.
    The Trans-Sahara Counterterrorism Partnership (TSCTP) was developed 
with this comprehensive approach in mind--as was its counterpart in 
East Africa, the Partnership for Regional East African Counterterrorism 
(PREACT). TSCTP uses a multisectoral approach involving the Department 
of State, USAID, and the Department of Defense to address the threat of 
terrorism in west and north Africa. We are also engaging in a range of 
activities to undermine violent extremists' narrative with the 
establishment of the Center for Strategic Counterterrorism 
Communications (CSCC). Through CSCC, the U.S. Government is providing a 
counternarrative to extremist propaganda and pushing back openly in 
online forums in Arabic, Urdu, and Somali.
    We are also working multilaterally to advance a more strategic, 
long-term approach to address the terrorist threats in the region 
through the Global Counterterrorism Forum (GCTF). With partners from 29 
countries and the European Union, the GCTF is helping to bring together 
U.S. and European CT efforts, with those of various countries in north 
Africa and the Middle East--for example, Algeria, Tunisia, and the 
United Arab Emirates, as well as many others--to combine international 
efforts and address new challenges as terrorist networks morph and 
tactics change. The Forum's Working Groups on the Sahel and on Criminal 
Justice/Rule of Law are strengthening the civilian capacities of 
countries in the region to prevent and respond to terrorism within a 
rule of law framework and are bringing together practitioners and 
policymakers to identify priorities, devise solutions, and mobilize 
additional resources from the donor community to help the region 
confront the terrorist threat it is facing.

    Question. Preventing Tragedy: The ARB's findings indicate that were 
failures on both ends--at the U.S. Embassy in Tripoli, as well as with 
the Department here in Washington. The ARB found that the Embassy ``did 
not demonstrate strong and sustained advocacy with Washington for 
increased security for Special Mission Benghazi'' and that in D.C. that 
``there appeared to be very real confusion over who, ultimately, was 
responsible and empowered to make decisions based on both policy and 
security considerations.''
  <diamond> Can you detail for me from start to finish how such 
        requests will be considered in the future, particularly from 
        High Risk, High Threat Posts?
  <diamond> Who will make the request for additional security at an 
        Embassy or other U.S. facility?
  <diamond> Who will receive the request, who will review it, who will 
        make the decisions about the request and in what timeframe can 
        we expect a request to be received, considered, and a 
        determination made?

    Answer. The Chief of Mission is directly responsible for the 
security of his or her mission. However, security is also a shared 
responsibility with other Department personnel.
    We will continue to balance this shared security responsibility 
with U.S. interests and policy priorities, evolving security threats, 
and the mitigation of security risks.
    The Department is creating a mechanism for determining which posts 
should be included in the High Threat Post (HTP) designation. 
Diplomatic Security (DS) will perform the requisite research, conduct a 
review, and prepare a recommendation for the Under Secretary for 
Management's approval. The action memorandum will reflect the 
circumstances and criteria that warrant the HTP designation. To lead 
this effort, and in line with the ARB's recommendation, I have created 
the first-ever Deputy Assistant Secretary for High Threat Posts in the 
Bureau of Diplomatic Security.
    Once a High Threat Post designation is approved, the regional 
bureau and post will determine the size and scope of a continuing U.S. 
presence based upon policy imperatives and security requirements. A 
High Threat Post would be expected to perform a critical review of 
staffing levels, adhere to enhanced security parameters for the 
facility, and enhanced transportation security.
    As with the current process, the Chief of Mission is ultimately 
responsible for requesting additional security assets. When a request 
for additional security is received for a High Threat Post, each 
request will be carefully considered by the Bureau of Diplomatic 
Security, Regional Bureau, and other Department principals in close 
consultation with the Chief of Mission.
    The Department is constantly assessing security protocols to 
reflect rapidly changing environments and the threats they present, and 
considers a range of options from mitigating steps, to reduced 
presence, to closing.

    Question. Host-Country Security: As our diplomats are increasingly 
called to represent the United States in the world's most dangerous 
places--Libya, Iraq, Afghanistan, Yemen, our security standards and 
protocols must adapt to ensure that the facilities in which they work 
and the personnel protecting these facilities are adequate to the 
threats posed by the specific environment, particularly where the host 
country is unable to meet its obligations under the Vienna Convention 
on Diplomatic Relations and provide protection to embassies and 
consulates. We must be, as the ARB states, self-reliant and 
enterprising in developing security platforms, profiles and staffing 
and make assessments on a case-by-case basis.

  <diamond> What assessments have been or are being undertaken with 
        regard to reliance on host-country security in High Risk, High 
        Threat Posts?
  <diamond> What alternative arrangements are you considering where 
        there is a need for a U.S. presence in a short timeframe that 
        does not allow for adherence to normal facility requirements--
        as in Benghazi, but where the host country cannot provide 
        suitable security?

    Answer. The Department has undertaken a worldwide review of our 
overall security posture in light of the evolving security challenges 
in the Middle East and elsewhere to identify and implement additional 
measures to bolster the security of our facilities and personnel where 
necessary. As part of this review, the Department assessed the host-
nation's ability to respond to an attack on our facilities.
    Every attempt is made to acquire sites or facilities that meet the 
physical security standards set forth in the overseas security policy 
board (OSPB) standards regardless of the length of time we plan to 
occupy the facility. If the OSPB standards cannot be met, the 
Department takes steps to mitigate any security vulnerabilities to 
ensure our staff have a safe and secure platform to conduct foreign 
policy.
    The Department currently has an increased security proposal pending 
congressional approval. With this proposal, we will be able to increase 
the Marine Security Guard Detachments, hire additional Bureau of 
Diplomatic Security special agents, and build additional secure 
facilities overseas.

    Question. Contracting: The ARB, and in his testimony before this 
committee, Under Secretary Nides stated that State may need additional 
contracting authority to ensure that the Department has the ability to 
quickly execute a contract where necessary to address security 
concerns.

  <diamond> Does the Department presently have the ability to use sole-
        source contracting to address urgent security needs?
  <diamond> Second, I understand that presently the Department 
        currently contracts for local guards on the basis of the lowest 
        price technically acceptable, which essentially means that the 
        focus is lowest price, but not necessarily the best value and 
        certainly not the best guards. Do you support a change in 
        contracting authority to allow the Department to let local 
        guards contracts based on the best value to the Department?

    Answer. The Department welcomes congressional support for our 
efforts to award local guard contracts to support our worldwide 
missions based on best value, in lieu of the current lowest price, 
technically acceptable requirement. Additionally, while there is 
generally sufficient and flexible authority to accomplish the 
Department's procurement goals, the Department is seeking congressional 
assistance to obtain additional authority to make awards final and 
unreviewable, thereby avoiding lengthy bid protests which put at risk 
our ability to secure our embassies.

    Question. Authorization of Resources: Members of this committee 
have argued that improving embassy security doesn't require resources 
or that if we need additional resources for diplomatic security and 
embassy construction that it can be transferred from elsewhere in the 
Department. House Republicans actually prevented the inclusion in the 
Sandy supplemental of the administration's request for a transfer of 
$1.1 billion in Iraqi security funds to address urgent security issues, 
like enhancing the Marine Security Guard program despite the fact that 
this is only a reprogramming of funds that won't be used in Iraq.

  <diamond> Putting aside the congressional limitations on transferring 
        funds between accounts, what is your response to these critics?
  <diamond> Do you have the resources elsewhere in the Department to 
        make up for the shortfalls in funding to increase the number of 
        diplomatic security agents, make securing upgrades and repairs 
        at facilities and to fund embassy construction at a pace that 
        reflects the urgency of the situation for about two dozen High 
        Risk, High Threat Posts around the world?

    Answer. The Department has not received sufficient funding to 
address our critical Embassy Security Construction Program. As 
originally envisioned, this program was designed to support the 
construction of 10 or more facilities per year. Reduced funding, both 
requested and appropriated, coupled with overseas inflation has cut the 
number of facilities by over 50 percent--only five were awarded in FY 
2012. The Department has determined that it will take approximately 
$2.2 billion per year, from all sources (which includes other agency 
contributions based on their staffing presence overseas) to get back on 
track.
    As indicated in the question, there are limitations on the 
Department's ability to transfer funding between and among state 
operations appropriations, particularly for construction, which 
marginalizes the ability to make the most efficient use of the funds 
which have been appropriated. In an effort to make the most of the 
funding the Department does receive, the Department is pursuing 
additional authorities that would permit the transfer of funds 
appropriated for State operations to increase security at U.S. 
embassies and other overseas posts. Specifically, at the Department's 
request, the Senate included in its version of the supplemental for 
Hurricane Sandy, which passed at the end of the 112th Congress, a 
provision that would allow the Department the flexibility to transfer 
Overseas Contingency Operations (OCO) funds from FY 2012 and from the 
FY 2013 Continuing Resolution between State Department operating 
accounts to meet emergent and emergency construction needs. 
Unfortunately, this provision was not carried in the House version of 
the supplemental. Thus, the Department is seeking the next earliest 
available legislative opportunity for Congress to provide the requested 
authority to transfer these funds to jump-start our enhanced embassy 
security proposal and related construction program.
    In addition, the Department intends to work with the Office of 
Management and Budget and Congress to seek ongoing transfer authority 
that would permit additional flexibility to transfer operating funds to 
the Embassy Security, Construction, and Maintenance account so that 
funding can be more rapidly made available for security upgrades at 
overseas facilities. Our current transfer authority limits the 
Department's ability to address new requirements, particularly in High 
Risk, High Threat Posts, because it places a cap on the amount of money 
that may be moved.

    Question. Training: One of the ARB recommendations that hasn't 
received so much attention, but actually may be one of most important 
things the government could do in the short term is to make sure our 
people on the ground have the training to take care of themselves to 
the best of their abilities, particularly folks charged with securing 
our embassies and people. State currently has multiple facilities that 
handle security training and I know you are hoping to bring the Foreign 
Affairs Security Training Center at Fort Pickett on line as soon as 
possible.

  <diamond> What other steps is the Department taking on the ARB 
        recommendation to enhance training to prepare our personnel for 
        leadership positions in High Risk, High Threat Posts? Are you 
        specifically looking to expand and improve counterthreat 
        training for all U.S. Government personnel operating overseas?

    Answer. The Department agrees that expanded training will be a 
major part of implementing the ARB recommendations.
    On December 20, 2012, the Under Secretary of State for Management 
made Foreign Affairs Counter Threat training mandatory for all 
personnel assigned under Chief of Mission authority to High Threat 
Posts, as well as third-party contractors, when appropriate. This 
expansion of Foreign Affairs Counter Threat training will have resource 
implications that we are working to address immediately. We look 
forward to congressional support for enhancing our security and 
training.
    On January 3, 2013, the Bureau of Diplomatic Security (DS) 
established a panel of Supervisory Special Agents to participate in a 
Program Review of the High Threat Tactical Course. This Diplomatic 
Security panel will review current the High Threat Tactical Course 
content, as well as review the findings of the Diplomatic Security 
Training Center internal program review of the High Threat Tactical 
Course. Changes to the High Threat Tactical Course will respond to the 
independent Accountability Review Board recommendations. Preliminary 
indications are that the High Threat Tactical Course may need to expand 
beyond its current 5-week course.
    Currently, DS is working to develop a training module for Locally 
Employed Staff, who assist the foreign government to provide security 
protection for Chiefs of Mission. This ``Protection 101'' course will 
provide DS Agents assigned as regional security officers with course 
materials, lesson plans, and exercises needed to present a 40-hour 
block of instruction to Locally Employed Staff.
    Implementing several of the ARB recommendations will also require 
additional training.

  <bullet>  For the recommendations dealing with fire safety, staff 
        will receive training for any new equipment issued for fire 
        protection.
  <bullet> The Department is evaluating and planning for additional 
        language training (for current and future staff at High Threat 
        Posts, including specialized training based on needs and/or 
        asymmetric language designated positions).

    Question. Worldwide Review: You informed us in your letter in 
December that you ordered a worldwide review of our overall security 
posture, particularly for high-threat posts.

  <diamond> What are the initial results of this review?
  <diamond> Are there specific lessons from Benghazi that should be 
        implemented with respect to these posts?

    Answer. All posts were directed to review their security in light 
of the Benghazi ARB report. The Department also identified a number of 
posts deemed to be at particular risk. The recommendations resulting 
from these reviews range from increased personnel to physical security 
enhancements to the introduction of new technologies.
    These reviews also identified other issues, such as the importance 
of carefully reviewing the overall staffing footprint, protection of 
accelerants, provision of firefighting and safety equipment, adequacy 
of safe havens, enhanced nonlethal area denial agents, consideration of 
expanding the role and presence of Marine Security Guard detachments, 
and expanded training for personnel assigned to high threat posts.
    The Department has submitted an Increased Security Proposal to 
Congress, including a legislative proposal to enable the transfer of 
previously appropriated Overseas Contingency Operations funding. With 
this proposal, we will be able to increase the number of Marine 
Security Guard Detachments, hire additional Bureau of Diplomatic 
Security personnel, build additional secure facilities overseas, and 
supply additional security equipment to high threat posts.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                     Submitted by Senator Tom Udall

    Question. How would you characterize Libyan cooperation with the 
investigation?

    Answer. The Government of Libya has been cooperative with us on the 
investigation within their limited capabilities. The Libyan people have 
also demonstrated their support for the United States, with tens of 
thousands marching against the militia violence shortly after the 
attacks in Benghazi. However, the government's investigative capacity 
on the ground is limited; security sector officials in Libya have been 
the targets of frequent assassination attacks and the overall security 
situation there is fragile, especially in Benghazi. We refer you to the 
FBI for any details about the current status of their investigation 
into the attacks on our facilities in Benghazi.

    Question. What is your assessment of the capacity and intention of 
Libyan authorities to bring those responsible to justice?

    Answer. While the Government of Libya has demonstrated its 
willingness to cooperate with the investigation, its investigative 
capacity is limited. We are working with the interagency and the Libyan 
authorities to help them address these limitations so as to bolster 
their ability to cooperate with the FBI investigation.

    Question. What support has the United States offered to Libya?

    Answer. Since the revolution, the United States has provided the 
Government of Libya with targeted technical assistance in a number of 
critical areas to help establish security sector institutions 
appropriate for a democratic state, and to develop the capacities 
needed to control loose weapons, counter terrorism, and improve border 
security management.
    Specifically, during multiple visits to Libya by the Department of 
Defense's Defense Institution Reform Initiative in 2012, we advised the 
Libyan Ministry of Defense on establishing defense institutions and 
armed forces that are unified, capable, and subject to civilian control 
and the rule of law. Furthermore we are providing training for Libyan 
military leaders in military officer professional development schools 
and familiarization visits to the United States. These visits by high-
level Libyan officials are ongoing. We have also been providing 
counterterrorism training to the Libyan military.
    We are poised to provide further assistance to build capability and 
capacity among Libya's border security agencies to detect, interdict, 
investigate, and prosecute illicit weapons transfers--pending 
resolution of a congressional hold--and we have been working with the 
Libyan authorities since August 2011 to secure and disable Qadhafi-era 
weapons stockpiles. On September 4, 2012, we designated Libya as a 
country eligible for the Global Security Contingency Fund (GSCF), a 
joint Department of Defense and State initiative pooling together 
resources and expertise to provide border security and Special 
Operations Forces (SOF) programs.
    During a December 17 meeting of senior officials in London, a 
Libyan interministerial delegation worked with the U.N. Support Mission 
in Libya, the United States, and other international partners to 
identify and address these priorities. This meeting, which the United 
States strongly encouraged and facilitated, catalyzed efforts by the 
Libyan authorities to better evaluate offers of assistance. We are 
working with the U.N. and other international partners to build on the 
December 17 meeting and assist Libya with its articulated security 
sector priorities.

    Question. It is my understanding that many of the security 
personnel in diplomatic security are trained to defend the embassy, its 
personnel, and critical information.

  <diamond> In a case like Benghazi, would it have made sense to have 
        more security personnel trained with counterassault 
        capabilities to take on the militants in order to more 
        effectively fight back the thrust of their attack, and should 
        the Department of State consider placing more security 
        personnel with these capabilities at high-risk locations as a 
        deterrent to would be attackers?

    Answer. The Department of State does place Diplomatic Security 
personnel with enhanced training at overseas locations, including in 
Tripoli. The Department has requested additional funding through the 
Office of Management and Budget (OMB) on November 27, 2012, to permit 
us to have additional security personnel both from Diplomatic Security 
and the U.S. Marine Corps.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator James E. Risch

    Question. In testimony before the committee, the Accountability 
Review Board (ARB) stated that our overreliance on Foreign Service 
Nationals (FSNs) was a contributing factor in the Benghazi terrorist 
attacks.

  <diamond> Would you also agree that the State Department relies too 
        heavily on FSNs in countries where there is a high 
        counterintelligence (CI) threat as well?

    Answer. In its official report, the independent Accountability 
Review Board determined that ``reliance'' on the quasi-governmental 
February 17 militia ``for security in the event of an attack was 
misplaced . . . '' This observation informed the ARB's general 
recommendation, which the State Department is implementing, that, ``The 
Department must strengthen security for personnel and platforms beyond 
traditional reliance on host government security support in High Risk, 
High Threat Posts.''
    On the separate question of FSNs or ``Locally Employed Staff''--
that is, host country nationals employed by U.S. missions abroad--the 
independent Accountability Review Board concluded that: ``The 
Department needs to review the staffing footprints at High Risk, High 
Threat Posts, with particular attention to ensuring adequate Locally 
Employed Staff (LES) and management support. High Risk, High Threat 
Posts must be funded and the human resources process prioritized to 
hire LES interpreters and translators.'' [Italics added.] We agree that 
such support is essential to advancing America's interests and keeping 
our people safe, including in countries where there is a high 
counterintelligence threat.

    Question. What steps is the State Department currently taking to 
reduce the reliance of FSNs in countries where the physical and CI 
threat is elevated?

    Answer. The Department of State, consistent with the 
recommendations of the independent ARB, is assessing the role of 
Locally Employed Staff, or Foreign Service Nationals, where 
appropriate. As the ARB report states, ``The Department needs to review 
the staffing footprints at High Risk, High Threat Posts, with 
particular attention to ensuring adequate Locally Employed Staff (LES) 
and management support. High Risk, High Threat Posts must be funded and 
the human resources process prioritized to hire LES interpreters and 
translators.'' But to be clear, local guards are not LES.

    Question. What is your opinion of how the FBI investigation into 
the Benghazi terrorist attacks is proceeding?

    Answer. I spoke to this matter during the hearing and refer you to 
the FBI for further details about the current status of the 
investigation. The Libyan Government has been supportive of, and 
cooperated with, the FBI investigation. At the same time, however, the 
Libyan Government's limited investigative capacity presents serious 
challenges. We are working with the Libyan authorities to help them 
address these limitations and bolster their ability to cooperate with 
the FBI investigation.

    Question. Have we fulfilled the President's promise to bring those 
perpetrators responsible to justice?

    Answer. As I stated during the hearing, the FBI is following some 
promising leads, and we are committed to bringing those responsible for 
these attacks to justice. We defer to the FBI for any details about the 
progress of their investigation into the attacks on our facilities in 
Benghazi. In high-level interactions with Libyan Government officials, 
we have made clear that this is a top policy priority both for the 
President and for me.

    Question. Could you please describe the State Department Foreign 
Affairs Counter-Threat (FACT) training for RSOs going to Libya?

    Answer. State Department and other U.S. Government personnel who 
serve in certain high threat posts, such as Iraq, Afghanistan, 
Pakistan, Libya, Sudan, South Sudan, Yemen, and Mexican border posts 
are required to receive security familiarization training, known as 
Foreign Affairs Counter-Threat Training (FACT), to provide enhanced 
security and life safety skills. (Certain officials who have received 
more advanced security training are exempted from this requirement.) 
The FACT training is a 5-day course and FACT training modules include 
but are not limited to: medical first responder, personnel recovery, 
firearms familiarization, surveillance detection, counterthreat 
driving, and explosive countermeasures.
    Instead of receiving FACT training, each of the DS Special Agents 
and Regional Security Officers serving in Libya were trained in one of 
two more advanced security courses: the High Threat Tactical Course 
(HTTC) or the Mobile Security Deployments Green Team (MSD GT) course. 
HTTC is a 5-week course that provides in-depth training on all of the 
course material covered in the FACT course plus additional medical, 
firearms, and tactical training. MSD GT is a 6-month advanced tactical 
course given to members of DS's tactical operations unit, the Office of 
Mobile Security Deployments, which covers material beyond both FACT and 
HTTC. (Since 2009, DS Agents and SPS who have completed either HTTC or 
MSD GT are exempt from taking the FACT course.)

    Question. Were any FACT requirements waived or abbreviated for 
Libya?

    Answer. The Bureau of Diplomatic Security Directorate of Training 
did not waive or abbreviate the FACT training course for any personnel 
assigned to take the training.

    Question. What other organizations in Africa is the Department of 
State currently considering for designation as a Foreign Terrorist 
Organization?

    Answer. As a matter of general practice, the Department does not 
publicly comment on prospective Foreign Terrorist Organization 
designations because doing so would risk undermining the effectiveness 
of the designation by alerting the potential target of the upcoming 
sanctions. For example, such prenotification could result in the flight 
of assets in the financial system before they could be frozen.
    The Department will continue to work with other relevant U.S. 
agencies and international partners in identifying ways we can further 
erode the capacity of organizations carrying out terrorist attacks in 
Africa, as well as to build the capacity of foreign partners to address 
terrorist threats within their countries and regions.

    Question. On what date was Ali Ani al-Harzi detained in Turkey?

    Answer. Information regarding al-Harzi's detention in Turkey is 
associated with an ongoing investigation by the Federal Bureau of 
Investigation. Questions regarding this matter should be directed to 
the Department of Justice.

    Question. On what date was Ali Ani al-Harzi transferred to Tunisia? 
On what date was the FBI granted access to Ali Ani al-Harzi? On what 
date did the FBI interview Ali Ani al-Harzi?

    Answer. For questions related to the ongoing criminal investigation 
of the Benghazi attacks, I would refer you to the Department of 
Justice.

    Question. On what date was Ali Ani al-Harzi released from Tunisian 
custody?

    Answer. Al-Harzi's lawyer announced his release from Tunisian 
custody on January 7.

    Question. Did the State Department make any requests on behalf of 
the U.S. Government to interview Ali Ani al-Harzi while he was in 
Turkish custody? If no, why not? If yes, what was the answer to our 
requests?

    Answer. The information on this matter is associated with an 
ongoing investigation by the Federal Bureau of Investigation. Questions 
regarding this matter should be directed to the Department of Justice.

    Question. Once transferred to Tunisian custody it appears it took 
over a month and a half for the FBI to gain access to al-Harzi.

  <diamond> How many formal demarche's and diplomatic notes were sent 
        to the Tunisians after his transfer from Turkey and before the 
        FBI was granted access?
  <diamond> Did Ambassador Walles make any calls to officials in the 
        Tunisian Government asking for access to al-Harzi? If yes, to 
        whom and on what dates? If no, why?
  <diamond> Did you make any calls to officials in the Tunisian 
        Government asking for access? If yes, to whom and on what 
        dates? If no, why?
  <diamond> Did the U.S. Government issue any formal demarche's or 
        diplomatic notes protesting his release?
  <diamond> Did Ambassador Walles make any calls to Tunisian Government 
        officials protesting his release? If so--to whom and on what 
        dates?

    Answer. Bringing the perpetrators to justice is a top priority for 
the U.S. Government. Since the September 14 attack on the U.S. Embassy 
in Tunis, the State Department and the Justice Department have 
vigorously pursued greater law enforcement cooperation with the 
Government of Tunisia. Tunisian officials have responded to our request 
for legal cooperation in the Benghazi attack investigation.
    Senior State Department officials have raised this case with 
Tunisian leadership. Most recently on December 14, Deputy Secretary 
Burns traveled to Tunis on behalf of the Secretary and discussed the 
issue with the Prime Minister. Between October 7 and December 21, 
Ambassador Walles had numerous conversations in person and by phone 
with the Minister of Justice, the Minister of Interior, the Foreign 
Minister, MFA State Secretary, and the Senior Advisor to the Prime 
Minister to request FBI access to an individual who was detained in 
Tunisia subsequent to the Benghazi attack. He also discussed this with 
the Tunisian President and Prime Minister. The Embassy transmitted 
numerous diplomatic notes and letters to the Tunisian Government during 
this period formally seeking access to this individual and providing 
additional information.
    Ali Ani al-Harzi was conditionally released from Tunisian custody 
on January 7. As I noted in my testimony, we have been assured that the 
Tunisian Government is monitoring his whereabouts. We have expressed 
concern about his release on multiple occasions. I called Prime 
Minister Jebali on January 13. Ambassador Walles, together with the FBI 
Director, met with the Prime Minister and Minister of Justice on 
January 17 to express concern. The Tunisian Government explained that 
the investigative judge had to release al-Harzi because there was not 
sufficient evidence to continue to detain him.
    We will continue to work closely with the Tunisian Government on 
this investigation, carrying out President Obama's directive that ``we 
will not waiver in our commitment to see that justice is done for this 
terrible act.''

    Question. On what date did you learn that al-Harzi would be 
released?

    Answer. We learned of the release on January 7. We did not receive 
advance notice.

    Question. Was any request made or discussions had about requesting 
that he be transferred to U.S. custody (either from Turkey or Tunisia)?

    Answer. Information regarding al-Harzi's detention is associated 
with an ongoing investigation by the Federal Bureau of Investigation. 
Questions regarding this matter should be directed to the Department of 
Justice.

    Question. Have any other individuals been detained by foreign 
governments (to include Libya) who may have knowledge about the 
September 11, 2012, Benghazi terrorist attacks and would be useful for 
the FBI or the intelligence community to have access to? If so, who, 
and in what countries are they being detained?

    Answer. We defer to the FBI on the details of the investigation 
into the Benghazi attacks.

    Question. What actions has State Department taken to gain access to 
these individuals?

    Answer. We are committed to bring those who attacked our compound 
to justice. Where we have been aware that another government has 
detained an individual in relation to the Benghazi attacks, we have 
engaged with that government to assist the FBI with gaining access to 
that individual.

    Question. What actions have you taken to get either the FBI or the 
intelligence community access to these individuals?

    Answer. We are committed to bring those who attacked our compound 
to justice. Where we have been aware that another government has 
detained an individual in relation to the Benghazi attacks, we have 
engaged with that government to assist the FBI with gaining access to 
that individual.

    Question. If countries have individuals in their custody and are 
not making them available to the FBI or intelligence community, would 
you consider listing them with the designation of nonfully supporting 
U.S. antiterrorism efforts (under section 40a of the Arms Export and 
Control Act)?

    Answer. We will consider all available diplomatic tools to use to 
ensure that the U.S. Government has full access to any suspects related 
to the Benghazi attacks.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                    Submitted by Senator Marco Rubio

    Question. Did you review or were you briefed on the cables sent 
from post in the months leading up to September 11 regarding the 
security situation in Libya, specifically in and around Benghazi?

    Answer. As I stated in my testimony before the committee, I am 
responsible for the nearly 70,000 people who work for the Department of 
State. Specific security requests pertaining to Benghazi were handled 
by the security professionals in the Department. While I did not see 
those requests, I was made aware of certain incidents in Benghazi, as 
well as the deteriorating security environment in Libya more generally, 
which was a topic of discussion with Libyan officials.

    Question. Were you aware of post's requests in March and July 2011 
for extended or additional security?

    Answer. As I stated in my testimony before the committee, I had no 
knowledge of specific security requests, including those in March and 
July 2012. These were handled by the security professionals in the 
Department.

    Question. Were you aware of the more than 200 security incidents 
that occurred in Benghazi in the 13 months leading up to the attack on 
the U.S. compound that caused most other Western diplomats to leave the 
city?

    Answer. As I have stated, I was aware of the broader deterioration 
of the security environment in Libya and of certain incidents that took 
place in Benghazi, such as those that occurred at our facility. I would 
note that other Western diplomats also did not leave Benghazi due to 
the security situation prior to September 11, 2012.

    Question. Can you provide a complete list of how many, if any, 
internal or interagency meetings you participated in to discuss the 
deteriorating security situation in Benghazi in the months that 
preceded the attack?

    Answer. As I stated in my testimony before the committee, there 
were a number of conversations and meetings where the topic of Libya's 
democratic transition and how we could assist in strengthening the 
Libyan Government's security capabilities throughout the country were 
discussed. We do not have a precise count of how many such meetings 
occurred, particularly since Libya was one of a number of topics 
discussed--such as transitions in north Africa.

    Question. Secretary Clinton visited Libya in October 2011 and 
Senior State Department officials visited the country in April and May 
2012. Deputy Secretary Burns visited the country in July 2012.

  <diamond> (a) Was the deteriorating security situation in Benghazi 
        specifically raised in any of the meetings that took place 
        during those visits, either with the country team or with 
        Libyan officials?

    Answer (a). The security situation in Libya has always been a topic 
of conversation and a priority for both the United States and Libya. We 
have engaged with Libyan officials at the highest levels about these 
issues.

  <diamond> (b) Did Secretary Clinton, Deputy Secretary Burns, or other 
        officials visiting Libya in the months prior to the attacks 
        discuss either in person or through memos the role of militias 
        and the security situation that contributed to post's concerns?

    Answer (b). Since the ouster of Qadhafi from power we have been 
urging the government to consolidate control over the militias. The 
militias had strong political credibility in Libya due to their service 
during the revolution, and have often provided security services where 
weak official security sector institutions could not, including by 
providing security in some locations during the July elections. I met 
with Libyan Prime Minister Abdurrahim ElKeib in Washington in March 
2012 and Deputy Secretary Burns met the Libyan Deputy Prime Minister in 
June 2012.

    Question. If the United States had played a leading role in 
accelerating the downfall of the Qaddafi regime, do you believe that we 
could have helped create a more stable post-Qaddafi security 
environment that would have been safer for our diplomatic personnel?

    Answer. The United States was a key and critical participant in the 
NATO-led operation that supported the Libyan people during the uprising 
against Muammar Qadhafi's dictatorship. We have supported the new 
Libyan authorities following the end of the conflict, and we were one 
of the first countries on the ground following the revolution. We have 
provided the new, democratically elected government with U.S. 
assistance to foster a more stable security environment for the Libyan 
people.

    Question. Secretary Clinton met with Libyan Prime Minister 
Abdurrahim ElKeib in Washington in March 2012 and Secretary Burns met 
the Libyan Deputy Prime Minister in June 2012.

  <diamond> Did either Libyan official express any concern about the 
        security situation in Benghazi? If so, was this message shared 
        with others in the U.S. Government?

    Answer. In March 2012 the security situation in Eastern Libya 
remained relatively stable. The focus of the ElKeib visit was on 
shepherding political support for Libya for national elections in July, 
a goal that was perceived by many to be overly ambitious for the 
fledgling transitional government. The visit also focused on building 
commercial ties with the oil-rich country.

    Question. What State Department officials involved in reviewing 
Embassy Tripoli's security resources requests has resigned from 
government service for their decisions to reject post's requests?

    Answer. All four individuals identified in the independent 
Accountability Review Board's (ARB) report have been removed from their 
jobs and placed on administrative leave while we step through the 
personnel process to determine next steps. The ARB did not find these 
four individuals to have breached their duty, because, as the Board 
highlighted, unsatisfactory leadership is not grounds for finding a 
breach of duty under Federal statute and regulations. We have submitted 
legislation to Congress to clarify that the Department may take 
disciplinary action on the basis of unsatisfactory leadership in 
relation to a security incident and to permit further leeway to future 
ARBs to recommend such disciplinary action.

    Question. When on the evening of September 11 were you notified of 
the attacks on the Benghazi facilities?

    Answer. As I stated in my testimony before the committee, I was 
notified of the initial attack on our compound in Benghazi shortly 
after 4 p.m. Eastern Standard time.

    Question. What actions did you take to ensure that all effort was 
made to assist U.S. personnel in Benghazi? Who else in the U.S. 
Government did you consult about this? Were you involved in any 
meetings or telephone calls with President Obama or White House 
officials that evening?

    Answer. As I stated during the hearing, upon learning of the attack 
on September 11 we engaged in continuous conversations within the 
Department, the interagency, and internationally to ensure all effort 
was made to assist our personnel in Benghazi. I immediately instructed 
Senior Department officials and Diplomatic Security personnel to 
consider every option to seek as much security support as possible and 
to coordinate with Libyan authorities.
    I spoke several times with National Security Advisor Tom Donilon to 
seek all possible support from the White House, which they quickly 
provided. I also spoke with our Charge d'Affaires in Tripoli to receive 
updates on the situation and to former CIA Director Petraeus to confer 
and coordinate. I called Libyan General National Congress President 
Magariaf to press him for greater support, not only in Benghazi but 
also in Tripoli. I participated in a secure video conference of senior 
officials from the intelligence community, the White House, and the 
Department of Defense, during which we reviewed the options and the 
actions we were taking. And I spoke with President Obama later in the 
evening to update him on the situation. I spoke early on the morning of 
September 12 with General Dempsey and again with Tom Donilon. As I told 
the committee, the two hardest calls that I made were obviously to the 
families of the families of Ambassador Stevens and Sean Smith.

    Question. Did the Libyan Government request any security assistance 
or training in the months that followed the fall of Qaddafi, during 
your visit in October 2011 or during any of the visits of other State 
Department officials? Were those requests approved or denied?

    Answer. Libyan officials have requested U.S. advice and assistance 
in rebuilding their security sector architecture and to establish 
control over their land borders. Since the revolution, the United 
States has provided the Government of Libya with targeted technical 
assistance in a number of critical areas to help establish security 
sector institutions appropriate for a democratic state, and to develop 
the capacities needed to control loose weapons, counter terrorism, and 
improve border security management.
    During multiple visits to Libya by the Department of Defense's 
Defense Institution Reform Initiative in 2012, we advised the Libyan 
Ministry of Defense on establishing defense institutions and armed 
forces that are unified, capable, and subject to civilian control and 
the rule of law. Furthermore we are providing training for Libyan 
military leaders in military officer professional development schools 
and familiarization visits to the United States, and provided 
assistance to develop an English learning lab to promote military-to-
military cooperation. We have also been providing counterterrorism 
training to the Libyan military.
    Our FY 2012 bilateral budget for Libya includes $800,000 in Anti-
Terrorism Assistance to enhance the government's control through law 
enforcement, border security, and investigation capacity assistance. 
This budget also includes $1.3 million in assistance to build 
capability and capacity among Libya's border security agencies to 
detect, interdict, investigate, and prosecute illicit weapons 
transfers. This assistance awaits resolution of a hold in the House of 
Representatives.
    Further, we have been working with the Libyan authorities since 
August 2011 to secure and disable Qadhafi-era weapons stockpiles. Our 
Conventional Weapons Destruction programs have identified Libya's 
ammunition storage areas and continue to inventory and control 
conventional weapons and munitions with an emphasis on man-portable air 
defense systems and other advanced conventional weapons with the help 
of trained Libyan nationals. On September 4, 2012, we designated Libya 
as a country eligible for the Global Security Contingency Fund, a joint 
Department of Defense and State initiative pooling together resources 
and expertise to provide security assistance.

    Question. What, if any specific actions has the administration 
taken since the September 11 attacks in Benghazi to assist the Libyan 
Government in its efforts to dismantle militias and extend government 
control throughout the country?

    Answer. After Libya's Prime Minister and his cabinet were seated in 
November 2012, we pressed the new government to use its mandate from 
the people to articulate its security sector priorities, noting that 
the United States stands ready to assist. During a December 17 meeting 
of senior officials in London, a Libyan interministerial delegation 
worked with the U.N. Support Mission in Libya, the United States, and 
other international partners to identify and address these priorities. 
This meeting, which the United States strongly encouraged and 
facilitated, catalyzed efforts by the Libyan authorities to better 
evaluate offers of assistance. We are working with the U.N. and other 
international partners to build on the December 17 meeting and assist 
Libya with its articulated security sector priorities.

    Question. The New York Times reported a month after the Benghazi 
attacks that the United States was increasing efforts to help Libya 
build its own niche military capabilities, including Special Forces, to 
combat the types of groups that were involved in the attack on our 
diplomats.

  <diamond> Why was such assistance not a higher priority prior to 
        Benghazi?

    Answer. Helping to grow Libya's security capabilities and capacity 
has always been a high priority for both of our governments, especially 
with the presence of militant groups' looking to fill any security 
vacuum especially following Qadhafi's fall. Following the July 7 
elections, the new democratically elected Libyan authorities felt they 
had the mandate to improve the security situation and accepted a U.S. 
proposal in August 2012 to help them build niche military 
counterterrorism capabilities.

    Question. Looking at the security situation today in Libya, what 
lessons have we learned and should apply about how the United States 
and our allies handle future post-conflict situations?

    Answer. Every situation is unique but there are lessons to learn 
from Libya. Despite overthrowing a brutal regime and organizing 
successful democratic elections in July 2012, Libyans have struggled to 
rebuild their country and establish a government with the necessary 
capacity. The security situation remains fragile and Libyans face 
numerous challenges as they seek to reform the country's institutions, 
disarm and reintegrate the militias into civilian life, and provide 
security throughout the country, not least for diplomatic missions. 
Libya's various transitional governments have asked the United States 
and its other international partners, including the United Nations 
Support Mission in Libya (UNSMIL), to assist with technical advice, 
training, and other support. We have since the fall of Qadhafi 
endeavored to respond to those requests, and we need congressional 
support to do so. Libya is a wealthy country, so we have looked to 
provide assistance principally in areas that the government could not 
support quickly or where government support is inappropriate. We 
continue to examine ways to increase this support and make it more 
effective. Unfortunately, progress has been slow and the Libyan 
Government has not yet succeeded in restoring security throughout the 
country.
    There is no easy solution for ensuring post-conflict stability in 
any nation. It is clear that the days and weeks immediately following a 
regime change are crucial to the longer term trajectory. But limited 
U.S. resources and the importance of a Libyan led reconstruction means 
that it is not simply a question of more resources. It is crucial for 
the United States to move quickly in the first days, to target its 
assistance at specific sectors where we have a strong national 
interest, demonstrated competence, and buy-in from local authorities. 
Finally, it is important to coordinate closely with our allies to share 
the burden of post-conflict stabilization and to ensure that our 
messaging to new governments is consistent and reinforcing.

    Question. On Security Resources Allocation: In testimony given on 
October 10, 2012, State Department officials indicated that security 
weaknesses in Benghazi did not result from a lack of security 
resources.

  <diamond> Can you identify the pressing security needs that diverted 
        resources from Benghazi prior to the attacks?

    Answer. The issue of resources is global, not specific, as 
explained in the independent Accountability Review Board (ARB) report. 
The report states, ``For many years the State Department has been 
engaged in a struggle to obtain the resources necessary to carry out 
its work, with varying degrees of success. This has brought about a 
deep sense of the importance of husbanding resources to meet the 
highest priorities, laudable in the extreme in any government 
department.'' In light of the ARB report, we are reexamining how we 
allocate resources to security requests and stepping up engagement with 
Congress to ensure that we have adequate resources.

    Question. As the Report of the Accountability Review Board on 
Benghazi confirmed, security at the U.S. facilities in Benghazi was 
woefully inadequate to the threat environment in the area.

  <diamond> What unique requirements are in place today that mandate 
        review and approval by higher level officials of decisions that 
        allocate or deny security resources to posts with extraordinary 
        or evolving security situations?

    Answer. We are undertaking a thorough review of the Bureau of 
Diplomatic Security's organization and management. A panel is being 
formed to focus on operating overseas, both in the policy and security 
arenas. This panel will begin its work in February and will be tasked 
to provide guidance and recommendations on restructuring the 
organization of Diplomatic Security to ensure effective allocation of 
resources.
    In addition, the Department established a new Deputy Assistant 
Secretary position for High Threat Posts and has provided requisite 
staff. This will focus attention and resources allocation for security 
at these posts.
    As a result of the ARB report, we are looking at ways to ensure 
that Assistant Secretaries, Deputy Assistant Secretaries, and special 
envoys who support U.S. missions abroad share responsibility with 
Senior Department principals, the Bureau of Diplomatic Security, the 
Bureau of Overseas Buildings Operations--to support Chiefs of Mission 
in protecting U.S. personnel and facilities, exercising judgment to 
balance U.S. interests and policy priorities, evolving security 
threats, and the mitigation of security risks.
    We believe these steps, and others that will be identified as we 
move forward implementing the ARB recommendations, will make allocating 
our resources for security more effective, with appropriate scrutiny 
applied at crucial decision points.

    Question. Does the State Department require that officials at the 
Bureau of Diplomatic Security responsible for decisions on the 
allocation of security resources have a background in overseas security 
operations or threat analysis? If so, what are those requirements?

    Answer. The Bureau of Diplomatic Security (DS) is the security and 
law enforcement arm of the U.S. Department of State. DS special agents 
are Federal law enforcement officers who serve worldwide. Throughout an 
agent's career, from basic training at the Federal Law Enforcement 
Training Center to accredited training at the Diplomatic Security 
Training Center, special agents receive the necessary training for the 
design, development, implementation, and review of comprehensive 
security programs.

    Question. In your opinion, how clearly defined were the roles of 
different agencies in responding to a security threat or attack on the 
installations in Benghazi on the day of the attacks?

    Answer. The interagency worked quickly and collaboratively to 
respond to the attack in Benghazi on September 11, and the independent 
Accountability Review Board stated that ``Washington-Tripoli-Benghazi 
communication, cooperation, and coordination on the night of the 
attacks were effective.'' The President gave clear directions to 
Secretary Panetta and Chairman Dempsey to work to mobilize all 
available assets and move them into the region as rapidly as possible, 
which the Department of Defense immediately set out to do.
    The ARB report also weighed in on this issue: ``The Board found no 
evidence of any undue delays in decisionmaking or denial of support 
from Washington or from the military combatant commanders. Quite the 
contrary: the safe evacuation of all U.S. Government personnel from 
Benghazi 12 hours after the initial attack and subsequently to Ramstein 
Air Force Base was the result of exceptional U.S. Government 
coordination and military response and helped save the lives of two 
severely wounded Americans.'' Still, it is important that we do more to 
coordinate with the Department of Defense and other interagency 
colleagues as we adjust our posture in light of the new landscape we 
face today in the region. And we have already started to do just that.

    Question. What steps have been taken by the State Department and 
other relevant elements in the national security structure to clarify 
interagency responsibilities in case of an emergency response in 
similar far-flung outposts?

    Answer. As the independent Accountability Review Board (ARB) 
reported, ``The interagency response was timely and appropriate, but 
there simply was not enough time given the speed of the attacks for 
armed U.S. military assets to have made a difference. Senior-level 
interagency discussions were underway soon after Washington received 
initial word of the attacks and continued through the night.'' Further, 
the ARB found that, ``Washington-Tripoli-Benghazi communication, 
cooperation, and coordination on the night of the attacks were 
effective, despite multiple channels of communication among Washington, 
Tripoli, Benghazi, and AFRICOM headquarters in Stuttgart, as well as 
multiple channels of communication within Washington itself.''
    To further improve interagency cooperation on diplomatic security, 
the Department has worked with Department of Defense on defining 
requirements for identified high-risk posts. The Bureau of Diplomatic 
Security has been engaged with the U.S. Marine Corps in discussions to 
increase the number of Marine Security Guard detachments overseas.
    We will also have broader discussions with the Department of 
Defense to evaluate providing more capabilities and capacities at 
higher risk posts.
    In furtherance of these efforts, the Department submitted an 
increased security funding proposal, which would include establishing 
additional Marine Security Guards, to the Congress in November 2012. In 
order to fully implement this increased security proposal, additional 
transfer authority is essential to be able to transfer existing 
Overseas Contingency Operations funds between State operations accounts 
to address urgent security and construction requirements at posts 
abroad.

    Question. Considering the need for forward-leaning diplomatic 
engagement and activities in places with evolving security conditions, 
do you expect any revisions to the Security Environment Threat List 
(SETL) that informs the work of the Diplomatic Security Service?

    Answer. The SETL is a long-range planning tool and should not be 
viewed as comprising dynamic ratings that are adjusted in relation to 
constantly evolving contemporaneous threats. DS's Office of 
Intelligence and Threat Analysis is the lead office within DS 
responsible for compiling the SETL, which is published annually. The 
very few off-cycle changes to the annual SETL ratings are coordinated 
between DS headquarters and post.
    While the SETL provides guidance, it is not the definitive word in 
asset allocation, especially in a global society that is ever-evolving 
where we must continuously evaluate risks and needs. This is especially 
true in nations with fragile governments or emerging democracies where 
additional security resources may be committed to posts as necessary in 
response to the emergent circumstances regardless of the threat levels 
assigned in the annual SETL.
    Presently, the Bureau of Diplomatic Security (DS), in consultation 
with other U.S. agencies, assigns threat levels to each post across six 
categories: terrorism; political violence; residential crime; 
nonresidential crime; human intelligence; and technical threat. These 
six threat categories, and the corresponding ratings assigned to each 
post, in turn inform the Department's Security Environment Threat List 
(SETL). Ratings are assigned for each category based on a four-level 
scale: Critical, High, Medium, and Low.
    Additionally, the SETL assists DS management in determining the 
needs of overseas security programs and helps advise effective 
allocation of resources in order to meet Overseas Security Policy Board 
(OSPB) standards.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                    Submitted by Senator Jeff Flake

    Question. In the wake of the attacks on our facilities in Benghazi, 
I was surprised to see Susan Rice, our Ambassador to the United 
Nations, as the representative chosen to speak to the press and the 
American people about those attacks. And as we all now know, the 
talking points she was given were inaccurate and painted a false 
account of what really happened in Benghazi. I do not believe the 
administration has satisfactorily explained why those talking points 
were inaccurate, but I do not intend to address that here.
    On November 14, President Obama excoriated some of my colleagues on 
the issue of Susan Rice and Benghazi, stating that, ``for them to go 
after the U.N. Ambassador, who had nothing to do with Benghazi . . . is 
outrageous.'' My question for you, Secretary Clinton, is

  <diamond> Why was Susan Rice deputized to be the face of Benghazi for 
        the administration, when even the President has said that Rice 
        ``had nothing to do with Benghazi?'' Was she the correct person 
        to tap for this position, in your opinion?

    Answer. As I stated during my testimony before the Senate Foreign 
Relations Committee on January 23, it was not in any way unusual for 
Ambassador Rice--a senior administration foreign policy official and 
member of the Cabinet--to have represented the administration by 
speaking to a full range of foreign affairs and national security 
issues on the Sunday talk shows on September 16.
    Just as President Obama and I said several times during the week 
following the attacks, as Ambassador Rice stated in her remarks, and as 
I said when I appeared before you last week: We were sharing the best, 
most current information that we had at the time, making it clear that 
it would likely change, as is often the case after such incidents.

    Question. The gaps in security at our facility in Benghazi have 
been addressed, the Accountability Review Board has given 
recommendations to address them, and things have started to happen at 
the State Department as a result. But several questions remain about 
the Benghazi facility itself.
    According to the report issued on December 30 by the Senate 
Homeland Security and Government Affairs Committee (HSGAC), ``despite 
the inability of the Libyan Government to fulfill its duties to secure 
the facility, the increasingly dangerous threat assessments, and a 
particularly vulnerable facility, the Department of State officials did 
not conclude the facility in Benghazi should be closed or temporarily 
shut down.''

  <diamond> Why did the facility in Benghazi remain open despite the 
        security risks it faced?
  <diamond> The committee report also notes that colocation of the 
        various governmental facilities in Benghazi was being 
        considered in December 2011. Why was this plan never realized?

    Answer. Benghazi is at the heart of a larger struggle within Libya 
between those who want to build a stable and prosperous democracy, and 
extremists who are pursuing a radical agenda. The new Libya was being 
born in Benghazi and we had to be present to understand the post-
revolutionary conditions. We have learned again and again that when 
America is absent--especially from the dangerous places--there are 
consequences: extremism takes root, our interests suffer, and our 
national security is threatened.
    Neither staff in Libya nor in Washington recommended that the TMF 
be closed. Ambassador Stevens had traveled to Benghazi on September 10 
to carry out routine diplomatic business, reconnect with his contacts 
from his time as special envoy in Benghazi, and to open a cultural 
center to reach out to local youth.
    Our security personnel at the Benghazi TMF and the security team at 
the Annex maintained a close working relationship and reinforced one 
another when needed. While collocation had been discussed as an option, 
and was still under consideration, it was never implemented by the two 
teams on the ground.

    Question. In an exchange with Senator Cardin during the hearing, 
you mentioned that the regime of Muammar Gaddafi had stockpiled 
warehouses of weapons, many of which have made their way into the black 
market and into the hands of terrorists since Gaddafi's ouster. And 
questions have arisen as to whether some of the same terrorists 
involved in the Benghazi attacks were also involved in the recent 
attack on an oil field in Algeria.

  <diamond> When the decision was made that the United States would 
        involve itself in the military effort to oust Gaddafi, were we 
        aware of the stockpiled weapons inside Libya? How many were 
        there, and where did they initially come from?

    Answer. We and our NATO partners had long been aware that Muammar 
Qadhafi had amassed a vast arsenal of conventional weapons and 
munitions, including man-portable air defense systems (MANPADS), during 
the four decades of his dictatorship.
    Due to the secretive nature of the regime and Libya's relative 
diplomatic isolation we are unable to determine the precise size of the 
Qadhafi regime's weapons holdings.
    The opaque nature of the Qadhafi regime also means we have 
incomplete information about the suppliers and sources of these 
conventional weapons. We know that Soviet/Warsaw Pact nations were 
major suppliers, along with China and several other states.

  <diamond> To what degree were these weapons a factor in planning for 
        Libyan reconstruction?

    Answer. Loose, poorly secured, and otherwise at-risk weapons and 
munitions prolong instability, complicate reconstruction planning, and 
delay Libya's ability in reconstruction. We recognized this threat 
prior to the conflict, and began working to directly address this 
threat as soon as areas were freed from Qadhafi control. Beginning even 
before the fall of the Qadhafi regime, State Department-funded 
contractors provided support to transitional authorities in an effort 
to rapidly account for and secure MANPADS and other advanced 
conventional weapons. (In the east, for instance, we began working with 
the Transitional National Council to assist in securing and destroying 
weapons once the fight against Qadhafi had moved further west.)
    The United States, in coordination with the United Nations, the 
European Union, and other international partners, continues to support 
the Government of Libya as its seeks to bring peace and stability to 
the country with technical assistance in the areas of disarmament, 
demobilization, and reintegration (DDR), police training, and border 
security. As the new Libyan Government continues to stabilize and make 
decisions as the country's first elected government in over 40 years, 
we will continue our engagement and explore opportunities to expand our 
assistance in this regard. Libyan leadership is essential to success in 
this area, and we remain uniquely positioned to provide assistance as 
requested by the new Libyan Government.

  <diamond> What efforts were taken to secure these warehouses and 
        stockpiles?

    Answer. Since April 2011, the United States has led an 
international effort, in cooperation with the Government of Libya, to 
account for Libya's advanced conventional weapons, including MANPADS. 
Through these ongoing efforts, we have accounted for, secured, or 
destroyed more than 5,000 MANPADS and components.
    Once the revolution began, we funded the work of two 
nongovernmental organizations operating in the eastern parts of Libya 
to clear unexploded ordnance at ammunition storage areas, hospitals, 
and schools. Beginning even before the fall of the Qadhafi regime, 
State Department-funded contractors provided support to transitional 
authorities in an effort to rapidly account for and secure MANPADS and 
other advanced conventional weapons.
    With the arrival of the first democratically elected Libyan 
Government in over four decades on July 7, 2012, we transitioned this 
program into a longer term effort to identify, inventory, and secure or 
dispose of stockpiled armaments and munitions. In all, the United 
States has committed approximately $40,000,000 in assistance to the 
Government of Libya for this collaborative effort. As an essential 
element of this approach, the United States is also cooperating closely 
with the U.N., the European Union, and key international partners 
including the United Kingdom, Canada, the Netherlands, Belgium, and 
France, to support the Libyan Government in securing its stockpiles.

  <diamond> How is it that these weapons are now turning up in other 
        deadly attacks across north Africa?

    Answer. In the immediate aftermath of the revolution, transitional 
authorities in Libya were unable to track all of the weapons removed 
from stockpiles during the power vacuum created by the fall of the 
regime. Moreover, the new government continues to encounter various 
challenges establishing control over these weapons as it works to 
reconstitute the country's decimated security sector institutions. It 
is still negotiating with tribal and militia forces to account for 
weapons held by these groups. Militants and smugglers have taken 
advantage of this protracted power vacuum for their own nefarious 
interests, and have destabilized north Africa and the Sahel.
    As noted above, we continue to lead an international effort to 
support the Government of Libya as they identify, inventory, and secure 
or dispose of stockpiled armaments and munitions. The government is 
developing plans, assisted by the United States, the European Union, 
Italy and other allies, to address Libya's porous borders and develop 
its military and border security forces.
    Libya's neighboring countries are also mobilizing to address this 
threat and build needed capacities--a daunting task considering their 
long and unpopulated borders, and long timelines required to develop 
effective measures. We have engaged the governments of countries across 
the region and coordinated with partners to build these capacities. For 
example, we have assisted the Governments of Niger and Chad to mitigate 
the threat of weapons proliferation, expanding assistance for their 
efforts to comprehensively patrol their borders and interdict weapons 
traffickers. As an essential element of this approach, the United 
States is also cooperating closely with the U.N., the European Union, 
and key international partners including the United Kingdom, Canada, 
the Netherlands, Belgium, and France, to support these governments in 
addressing these threats.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                   Submitted by Senator John Barrasso

    Question. In the letter dated December 18, 2012, you stated, ``We 
continue to hunt the terrorists responsible for the attacks in Benghazi 
and are determined to bring them to justice.'' During the hearing in 
December, I asked the status of bringing those responsible to justice.

  <diamond> Has the United States identified the terrorists responsible 
        for the deaths of the four brave Americans, the injuries of two 
        U.S. personnel, and the destruction of U.S. facilities?

    Answer. As I stated during the hearing, the FBI is following some 
promising leads, and we are committed to bringing those responsible for 
these attacks to justice. This is still a complex picture, and the FBI 
and our intelligence community continue to piece it together. We defer 
to the FBI for any details about the progress of their investigation. 
In high-level interactions with Libyan Government officials, we have 
made clear that this is a top policy priority both for the President 
and for me.

    Question. Are there any individuals currently being detained who 
have information about the attacks? Is so, who are they and where are 
they located? Has the U.S. been granted access to question them?

    Answer. We defer to the FBI for any details about the progress of 
their investigation into the attacks on our facilities in Benghazi. The 
State Department is working with the interagency to explore every 
opportunity to gain information to bring the perpetrators of this crime 
to justice.

    Question. What specific steps has the Department of State taken to 
identify, 
locate, and bring the terrorists to justice?

    Answer. We defer to the FBI on the details of the investigation 
into the Benghazi attacks. However, where we have been aware that 
another government has detained an individual subsequent to the 
Benghazi attack, we have aggressively engaged with that government so 
the FBI can gain access to that individual.

    Question. On October 4, 2012, the FBI and an investigation team 
finally arrived in Benghazi, Libya, after the attack on September 11, 
2012. While the investigation team was unable to make it to the 
consulate, CNN had reporters on the scene and accessing unsecured 
materials within 3 days of the attack.

  <diamond> Why did it take 23 days for the U.S. investigators to get 
        to Benghazi to secure information when media reporters where 
        there within 3 days after the attacks?

    Answer. I instructed the Department to ensure that we were good 
partners to the FBI. The weekend after the attack, we worked with the 
Libyan Embassy to ensure that the Bureau's team had expedited visas and 
that they were able to travel to Libya as soon as possible, which they 
did. However, in the days and weeks following the attack the U.S. 
Government did not want to send our employees back to Benghazi until we 
concluded it was safe to do so. We also understood from Libyan 
officials that U.S. Government officials would have been a target in 
Benghazi at that time.

    Question. Following the terrorist attack, what specific requests 
were made by the U.S. Government to the Government of Libya? How did 
the Government of Libya respond to the requests of the United States?

    Answer. The security of our personnel and posts around the world is 
the highest priority for me and the Department. We have requested the 
cooperation of the Government of Libya at the highest levels as we work 
to bring the perpetrators of the attacks on our facilities in Benghazi 
to justice. We worked closely with the Libyan Government to request 
additional security at our facilities in Tripoli following the attack 
in Benghazi and continue to coordinate with the government based on 
threat information. The Libyan authorities are challenged by the 
deteriorating security situation in the area and their limited 
institutional capabilities. These challenges have affected the pace of 
the investigation. FBI Director Robert Mueller, Under Secretary of 
Defense for Intelligence Michael Vickers, Deputy Secretary William 
Burns, and I have all proposed U.S. security assistance to help the 
Libyan Government overcome these obstacles and Libyan authorities have 
welcomed these offers.
    Prior to the Benghazi attack Libyan security vehicles patrolled the 
area of our Embassy in Tripoli. Following the attack, additional Libyan 
security personnel were provided. Subsequently, and in response to our 
requests, Libyan authorities positioned security vehicles and personnel 
at our Embassy. Also following the Benghazi attack, the Libyan 
authorities facilitated the deployment of a U.S. Marine Corps FAST 
platoon to protect our Embassy in Tripoli. The arrival of a DS Mobile 
Security Deployment team to Tripoli following the attack was also 
supported and facilitated by the GOL.

    Question. How would you characterize the support, cooperation, and 
assistance provided to the United States from the Government of Libya? 
Other countries in the region?

    Answer. The new, democratically elected Government of Libya has 
demonstrated political will to help, but very limited investigative 
capacity. I defer to the FBI on questions referring to the current 
progress of the investigation into the Benghazi attacks.

    Question. What efforts are being taken by the Department of State 
to ensure other governments are cooperating and granting access to 
vital information needed in our investigation?

    Answer. We are committed to bringing those who attacked our 
compound to justice. Whenever we are aware of a possible lead in this 
case, we aggressively engage with the government that has that 
information in order to gain access.

    Question. The Secretary of State established an advisory panel on 
the security of overseas facilities after the bombing of our Embassy in 
Beirut in 1983. It issued an extensive report, referred to sometimes as 
the Inman Report.
    After the East Africa Embassy bombings in 1998, an Accountability 
Review Board was established. Its extensive report cited many times to 
the Inman Report.
    The recent Accountability Review Board report on Benghazi cites to 
both the Inman and the East Africa Embassy bombings Accountability 
Review Board reports. For example, it says ``a recurring theme 
throughout the Board's work was one also touched upon by the Nairobi 
and Dar es Salaam [Accountability Review Boards] in 1999,'' pertaining 
to stove-piped decisionmaking.''

  <diamond> Why has the Department of State failed to fully implement 
        the recommendations of these previous Boards?

    Answer. There have been 18 previous ARBs, with a total of 164 
recommendations. A preliminary review indicates the Department has 
implemented over 90 percent of these past recommendations. The 
implementation of a few recommendations remains ongoing, and less than 
10 recommendations were assessed and not implemented because they were 
either not in the purview of the State Department, implementation 
raised alternate safety concerns, or alternate action was taken.
    In order to execute most effectively the recommendations from the 
most recent and previous ARBs, ongoing funding is required--and as such 
it is critical there is a strong partnership between the Department of 
State and the Congress. Declining funding has, as Ambassador Pickering 
and Admiral Mullen noted, led to a slowdown in the Department's ability 
to build new Inman facilities.

    Question. How are you going to ensure that future Accountability 
Review Boards are not going to cite this report as lessons told but 
never implemented?

    Answer. As I stated during my testimony, I accepted all 29 
recommendations of the independent Accountability Review Board (ARB). 
When the ARB report was issued, we immediately evaluated the 29 
recommendations, and developed 64 separate taskings needed for their 
implementation. We formed working groups, issued guidance, and 
developed a path to implementation. Some of the recommendations have 
already been implemented; some are well on their way to completion; and 
some will require long-term action, but we have set milestones to 
achieve implementation of all of them. The Department has been 
monitoring and tracking these recommendations and the specific taskings 
related to each to ensure their implementation. As I stated, 
implementation of all of the recommendations will be underway, and a 
number completed, by the time the next Secretary of State takes office.
    It is important to note that implementing many of the 
recommendations is dependent on sufficient funding and support from 
Congress. We are seeking legislative language that would authorize us 
to transfer previously appropriated funds from one of our accounts to 
another, which would allow the Department to use the funds more 
effectively to support increased security measures. We will continue to 
work with Congress on funding and any needed legislative authorities.

    Question. The Accountability Review Board's report recommended that 
we strengthen security beyond the traditional reliance on host 
government security support in High Risk, High Threat Posts.

  <diamond> At present, how many High Risk, High Threat Posts are there 
        in the world?

    Answer. This is a complicated question and one that we are 
constantly evaluating. Currently the newly established Deputy Assistant 
Secretary for High Threat Posts oversees 28 posts in 17 nations.

    Question. How many of those posts currently have security beyond 
the traditional reliance on the host government's security support?

    Answer. Currently, 10 of the High Threat Posts have security 
programs to augment host government security support.

    Question. How many posts rely on local armed militias rather than 
central government forces?

    Answer. Host nations generally provide additional protection for 
diplomatic personnel within their borders. Libyan governmental 
authorities arranged for February 17th Brigade personnel to provide us 
with security in Benghazi.
    Libya was unique. I will be happy to send up experts to brief you 
on our security posture in high-threat locations.

    Question. To what extent does the Department of State use similar 
``Special Mission'' designations and what are the implications 
regarding security provisions for those posts?

    Answer. The Department of State officially designates overseas 
posts as either an embassy, a consulate, or consulate general, an 
interest section, or a mission to an international organization. As an 
interim facility, there was no formal designation assigned to Benghazi. 
``Special Mission'' is used informally, but is not an official 
designation for facilities by the Department of State and therefore, 
there are no specific implications regarding security.

    Question. The report on page 11 recommends certain security 
measures at what are known as non-Inman and non-SECCA facilities.
    These facilities appear to not comply with the physical security 
recommendations of the advisory panel on the security of overseas 
facilities established after the bombing of our Embassy in Beirut in 
1983, and of the Secure Embassy Construction and Counterterrorism Act 
of 1999, passed in the wake of the 1998 East Africa Embassy bombings.
    In your letter to Congress, you state there are more than 275 
diplomatic posts around the world.

  <diamond> How many of these posts are non-Inman and non-SECCA 
        facilities? Why do these posts continue to be in noncompliance?
  <diamond> Which regions might you anticipate a need for funding that 
        is not in the current budget request?

    Answer. To the extent the budget process allows, the Department, 
with congressional support, continues to upgrade overseas facilities 
and, where necessary, replace facilities to increase their safety, 
security, and functionality. Since the 1999 enactment of SECCA, the 
Department has completed 71 new diplomatic facilities and has 19 under 
design or construction to provide a safer, more secure work environment 
for U.S. Government employees and locally employed staff. Prior to 
SECCA, the Department completed 19 Inman projects and 8 pre-Inman 
projects that incorporated the new standards to the extent possible. 
These 117 posts represent about 42.5 percent of our overseas posts. 
This leaves approximately 158 posts that have facilities that may not 
meet current security standards. Many of these facilities were built or 
acquired prior to the establishment of the current security standards, 
and others are subject to authorized waivers and/or exceptions.
    Each year, the Bureau of Diplomatic Security develops a list of the 
80 most vulnerable posts and the Bureau of Overseas Buildings 
Operations uses this list to inform the Department's Capital Security 
Construction Program. These posts represent all regions of the world. 
Replacement of these facilities is an ongoing and long-term program and 
is driven by ever-changing terrorist threats, which result in evolving 
security standards, and is affected by budgetary constraints. But one 
thing is clear--we will not allow a mission to open or to remain open 
if we believe that we are unable to protect our people and mitigate 
risks.
    Posts not scheduled for new embassy construction in the near term 
receive compound security upgrades to protect our overseas staff and 
facilities. In addition, as security standards change, the Department 
goes back and retrofits more recently built facilities with additional 
security measures.
    The Accountability Review Board recommended increasing the budget 
for embassy replacement to accelerate the program and counter the loss 
of funding due to inflation so we can expedite the replacement of 
facilities that predate the current security standards.
    The Department would be pleased to provide a briefing on our 
overseas construction programs.

    Question. In your letter to Congress, you spoke of the diplomatic 
campaign being undertaken to address strategic challenges in the 
region. The 9/11 Commission specifically recommended that a 
comprehensive U.S. strategy to counter terrorism should include 
economic policies that encourage development and more open societies. 
It noted that we had announced a goal of working toward a Middle East 
Free Trade Area by 2013.

  <diamond> Will the MEFTA be complete this year? What is the status of 
        your efforts on that initiative?

    Answer. We remain fully engaged with our partners in the region on 
trade and investment issues and share your view that a comprehensive 
U.S. economic strategy in the region is necessary. At present we have 
Free Trade Agreements (FTAs) with five countries in the region: Israel, 
which entered into force in 1985; Jordan (2001); Morocco (2006); 
Bahrain (2006); and Oman (2009). These agreements have played a key 
role in increasing U.S. exports and in enhancing prosperity in the 
region.
    Since early 2011, we have been pursuing Trade and Investment 
Partnerships (TIPs) with Egypt, Tunisia, Morocco, and Jordan. These 
partnerships include reaching agreement with our partners on a Joint 
Declaration on Principles of International Investment; a Joint 
Declaration of Principles on Trade in Information and Communication 
(ICT) Services; and a Protocol on Trade Facilitation and Customs 
Procedures. We reached agreement with Morocco in December 2012 and have 
concluded all except the Trade Facilitation Protocol with Jordan. Egypt 
is sending a delegation in early February for bilateral discussions on 
the three agreements, and we have invited a delegation from Tunisia to 
Washington for discussions in the near future.

    Question. The United States accepts a certain amount of risk to 
operate in areas like Benghazi. The Accountability Review Board stated, 
``risk mitigation involved two imperatives--engagement and security--
which require wise leadership, good intelligence and evaluation, proper 
defense and strong preparedness, and at times, downsizing, indirect 
access, and even withdrawal.''

  <diamond> What are the factors the Department of State considers when 
        determining whether a location is simply too dangerous to 
        support a diplomatic presence?

    Answer. The Department of State, in coordination with other U.S. 
Government agencies, considers a number of factors in making a 
determination whether a particular location is permissive for a U.S. 
diplomatic presence. This includes the importance to advancing the 
Nation's foreign policy interests and enhancing security at home and 
the capability and willingness of the host government to provide host-
nation security. Other factors include the extent and level of 
instability to include political and internal violence such as crime, 
uncontrolled rioting, civil war and insurgency, and ongoing military 
operations. The ability to establish and maintain secure facilities 
from which to operate is another factor for consideration. In 
situations where it is deemed that vital U.S. interests mandate a 
presence in a hostile environment, every effort is made to protect our 
personnel overseas, but it is also recognized that advancing U.S. 
foreign policy objectives overseas always carries with it inherent 
risk.

    Question. What are the conditions or triggers that require the 
Department of State to evaluate whether to withdraw U.S. presence from 
a country?

    Answer. The specific conditions or triggers for evaluation of 
continued U.S. diplomatic presence vary by country. When evaluating 
whether to close a U.S. mission numerous factors are considered, 
including but not limited to: the political stability of the host-
nation, the security environment, the ability to mitigate potential 
threats, host-nation willingness and capability to provide security 
support, and U.S. foreign policy significance and importance.

    Question. The Accountability Review Board explained that the 
responses from the Libyan guard forces were inadequate and reliance on 
them for security in the event of an attack was misplaced.

  <diamond> Who was responsible for making the decision to utilize the 
        February 17th Martyrs Brigade?

    Answer. Host-nations generally provide additional protection for 
diplomatic personnel within their borders. Libyan governmental 
authorities arranged for February 17th Brigade personnel to provide us 
with security in Benghazi.

    Question. The Accountability Review Board explained that the 
responses from the Libyan guard forces were inadequate and reliance on 
them for security in the event of an attack was misplaced.

  <diamond> What assessments of the capabilities and intentions of the 
        February 17th Martyrs Brigade did the State Department rely on 
        prior to making a decision to enter into a security arrangement 
        with Brigade members?

    Answer. Host nations generally provide additional protection for 
diplomatic personnel within their borders. Libyan governmental 
authorities arranged for February 17th Brigade personnel to provide us 
with security in Benghazi.

    Question. U.S. Ambassadors are often put in difficult positions and 
dangerous posts. However, it is not just the ambassadors but also U.S. 
personnel that are put at risk.

  <diamond> What procedures and requirements are in place to protect 
        ambassadors during their travel in-country?

    Answer. The size, configurations, and profile of an ambassador's 
Chief of Mission (COM) protective detail are based upon a number of 
factors, which are compiled and published in the Security Environment 
Threat List (SETL). Additionally, other factors can include any 
specific threats against an ambassador that are independent of a 
country's threat rating. COM security details are tailored to the 
ambassador's operational requirements, known threat, and prevailing 
security conditions including the legal authority to conduct protective 
operations. Protective security operations may employ armored vehicles, 
follow vehicles, and bodyguards provided by host-nation, security 
personnel working directly for an Embassy under the operational control 
of a Regional Security Officer (RSO), a contract protective security 
detail also under the RSO or a combination of the above.

    Question. Are there mechanisms in place to prevent travel to areas 
that place undue risk to the safety of ambassador's and U.S. personnel?

    Answer. U.S. diplomatic missions maintain an Emergency Action 
Committee (EAC), which is comprised of members of the country team, 
chaired by the Deputy Chief of Mission and validated by the Chief of 
Mission. The RSO plays a critical role in the EAC, which provides the 
ambassador with guidance in preparing for and responding to threats, 
emergencies, and other crises at the post or against U.S. interests 
elsewhere in-country. The EAC also reviews security policies, such as 
post's travel policy, which may recommend particular modes of transport 
and prohibited times and/or locations of travel.

    Question. How involved are U.S. Ambassadors in dictating the 
security postures of the posts under their management?

    Answer. Pursuant to The Omnibus Diplomatic Security and Anti-
Terrorism Act Of 1986 (Public Law 99-399 (22 U.S.C. 4801, et seq.)), as 
amended, the Secretary of State and, by extension, the Chief of 
Mission, is responsible for developing and implementing policies and 
programs that provide for the protection of all U.S. Government 
personnel on official duty abroad (except for Voice of America 
correspondents on official assignment and those under the command of a 
U.S. area military commander who has responsibility for personnel 
security) and their accompanying dependents.

    Question. Do U.S. Ambassadors have sole discretion in determining 
their travel plans to various areas in the country? Do they receive 
intelligence reports about the dangers in the areas tentatively 
scheduled for visits?

    Answer. The Chief of Mission is guided by the respective travel 
policy for his/her post. The travel policy is set by post with input 
from the Emergency Action Committee (EAC). The Bureau of Diplomatic 
Security (DS) Regional Security Officer (RSO) at post, as part of the 
EAC, provides input from a local security perspective for the 
development of post's travel policy. Ultimately the ambassador is 
responsible for the approval and enforcement of the policy.
    A U.S. Ambassador, acting as the personal representative of the 
U.S. President, is responsible for the full range of American interests 
and programs in their given country of assignment and maintains a valid 
security clearance. U.S. Ambassadors have access to intelligence 
information from a variety of sources. U.S. Ambassadors normally 
coordinate their travel plans with the RSO, who in turn determines if 
the intended travel sites present security concerns. Those security 
determinations can be supported by intelligence information, if any 
specific information exists at the time. After the evaluation, the RSO 
makes a recommendation to the ambassador, so the ambassadors can make 
the final decision.

    Question. Why was Ambassador Stevens in Benghazi, Libya on 
September 11, 2012?

    Answer. Ambassador Stevens was in Benghazi to meet with Libyan 
officials and reengage with the network of contacts that he had 
developed during his time there as special envoy and to reaffirm that 
he and the United States recognized the importance of Libya's second 
city, the cradle of its revolution.

    Question. Why did he [Ambassador Stevens] and the Department of 
State believe it was safe to travel there [to Benghazi] on September 
11, 2012?

    Answer. Ambassador Stevens was in Benghazi to meet with Libyan 
officials and reengage with the network of contacts that he had 
developed during his time there as special envoy, and to reaffirm that 
he and the United States recognized the importance of Libya's second 
city, the cradle of its revolution. Ambassador Stevens understood 
Benghazi better than anyone else in the U.S. Government. He understood 
that diplomacy, by its nature, must be practiced in dangerous places 
because our interests suffer and our security is threatened when we are 
absent.
    The independent Accountability Review Board found that intelligence 
provided no immediate, specific tactical warning of the September 11, 
2012, attacks in Benghazi. The intelligence community has spoken to 
this as well.

    Question. Knowing that there was an existing Worldwide Protective 
Services program (WPPS) with several prime vendors, why didn't the 
Department of State's OPO (Overseas Protective Operations) or HTP (High 
Threat Protection) offices utilize the WPPS vendors to secure the 
Benghazi location?

    Answer. As is the case in many countries around the world, 
including the United States, the Libyan Government would not allow the 
use of armed foreign national contractors in either a static security 
or personal security capacity.

    Question. There were other WPPS resources around the world with 
experienced teams accustomed to working together in similar 
environments that could have been reallocated to Libya without having 
to train and stand up new resources on a very short timeline.

  <diamond> Why was this option not utilized? Was this option not 
        offered by the vendors?

    Answer. As is the case in many countries around the world, 
including the United States, the Libyan Government would not allow the 
use of armed foreign national contractors in either a static security 
or personal security capacity.

    Question. Were the OPO and HTP criteria for appropriate levels of 
security at overseas sites utilized and followed for implementing a 
security plan for the Benghazi site?

    Answer. The Diplomatic Security High Threat Posts Directorate did 
not exist at the time of the Benghazi attack. One of the first steps I 
took was creating the position of Deputy Assistant Secretary for High 
Threat Posts, ensuring that there would be a security professional 
whose entire purview was posts in high threat areas. We also refer you 
to the findings of the independent Accountability Review Board.

    Question. The Department of State contractors who work overseas 
must meet several criteria to work on security details, including 
medical screening, physical fitness testing, marksmanship, and about 9 
weeks of mandatory training.

  <diamond> Were the personnel who executed the security plan for the 
        Benghazi site trained to WPPS's exacting standards? Were they 
        medically screened? Were they tested for physical fitness? 
        marksmanship? Were the staffing levels at the site commensurate 
        with WPPS program staffing at other sites in the world?

    Answer. Local guard forces (typically unarmed) are employed 
worldwide by the Department to provide additional protection for U.S. 
Government personnel and to protect U.S. facilities from damage or loss 
due to violent attack and theft. The local guards check and log visitor 
identification, screen visitors and packages entering the compound, and 
act as an early warning system. The local guards are also responsible 
for the activation of the Imminent Danger Notification System (IDNS) in 
the event of a terrorist or mob attack to notify all personnel to take 
cover and await further instructions.
    The local guard force in Benghazi was not required to meet a 
Worldwide Protective Services standard with regard to medical screening 
or physical fitness. However, Libyan contract security guards were all 
required to undergo a suitability investigation. This included proof of 
employment, recommendations, a police check, a credit investigation, 
and a physical fitness examination. In addition to this vetting, guards 
received various forms of training, including on subjects like 
explosive detection, CCTV operation, emergency plans, and the use of 
deadly force.

    Question. Were the local nationals (LNs) who were used in the 
security plan screened to the same standards as LNs at other State 
Department sites designated as in a high-threat environment?

    Answer. Yes. The standard policies and procedures for hiring and 
vetting local guard force personnel are detailed in the Department of 
State's Foreign Affairs Manual; the Overseas Security Policy Board 
(OSPB) Standards; Foreign Affairs Handbook; and the Local Guard 
Handbook.
    The Regional Security Officer (RSO) conducts local security checks 
as well as interagency database checks in the United States. In 
addition, each candidate is interviewed by a local investigator. The 
vetting of local guards in Benghazi included proof of successful 
employment during the past 3 years and recommendations from their 
respective supervisors, in addition to a police check that includes 
criminal and/or subversive activities and a check of sources from their 
neighborhoods. It is worth noting that while there has been some 
confusion, local nationals and Locally Employed Staff are wholly 
different.

                                  <all>

</pre></body></html>
